<html>
<title> - PREVENTION OF DECEPTIVE PRACTICES AND VOTER INTIMIDATION IN FEDERAL ELECTIONS: S. 453</title>
<body><pre>[Senate Hearing 110-277]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-277
 
  PREVENTION OF DECEPTIVE PRACTICES AND VOTER INTIMIDATION IN FEDERAL 
                           ELECTIONS: S. 453

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 7, 2007

                               __________

                          Serial No. J-110-42

                               __________

         Printed for the use of the Committee on the Judiciary



                    U.S. GOVERNMENT PRINTING OFFICE
40-581                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................     1
    prepared statement...........................................   123
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin......................................................     4
Leahy, Hon. Patrick J., a U.S. Senator fromtor from the State of 
  Vermont, prepared statement....................................   161
Schumer, Hon. Charles E., a U.S. Senator from the State of New 
  York...........................................................     5
    prepared statement...........................................   242

                               WITNESSES

Briffault, Richard, Joseph P. Chamberlain Professor of 
  Legislation, Columbia Law School, New York, New York...........    21
Canfield, William B., Principal, Williams & Jensen PLLC, 
  Washington, D.C................................................    22
Gansler, Hon. Douglas F., Attorney General, State of Maryland, 
  Baltimore, Maryland............................................    10
Johnson, Hon. Jack B., County Executive, Prince George's County, 
  Maryland, Upper Marlboro, Maryland.............................    12
Kirsanow, Peter N., Commissioner, United States Commission on 
  Civil Rights, Washington, D.C..................................    23
Obama, Hon. Barack, a U.S Senator from the State of Illinois.....     7
Shelton, Hilary O., Director, Washington Bureau, National 
  Association for the Advancement of Colored People (NAACP), 
  Washington, D.C................................................    17
Trasvina, John, President and General Counsel, Mexican American 
  Legal Defense and Educational Fund (MALDEF), Los Angeles, 
  California.....................................................    19

                       SUBMISSIONS FOR THE RECORD

American Center for Voting Rights, Washington, D.C., report......    37
Arkansas Democrat-Gazette, January 22, 2001, article.............   111
Associated Press:
    June 29, 1999, article.......................................   113
    June 10, 2007, article.......................................   114
    June 9, 2007, article........................................   115
Briffault, Richard, Joseph P. Chamberlain Professor of 
  Legislation, Columbia Law School, New York, New York, statement   116
Canfield, William B., Principal, Williams & Jensen PLLC, 
  Washington, D.C., statement....................................   120
Fox News, October 16, 2002, article..............................   127
Gale Group Inc., October 30, 2006, article.......................   129
Gansler, Hon. Douglas F., Attorney General, State of Maryland, 
  Baltimore, Maryland, statement, statement......................   133
Houston Post, November 3, 1964, reproduction of ``public notice''   137
Johnson, Hon. Jack B., County Executive, Prince George's County, 
  Maryland, Upper Marlboro, Maryland, statement..................   138
Joint Task Force Investigating Election Fraud, May 10, 2005......   142
Kirsanow, Peter N., Commissioner, United States Commission on 
  Civil Rights, Washington, D.C., statement and attachments......   149
Lawyers Committee for Civil Rights Under Law, Barbara Arnwine, 
  Executive Director, Washington, D.C., statement................   156
Lott, John R., Jr., Department of Economics, SUNY Binghamton, 
  Binghamton, New York, statement................................   163
Manhattan Institute, City Journal, Fall 2004, articles...........   190
Mathias, Charles McC., Jr., former U.S. Senator, Washington, 
  D.C., letter...................................................   195
Miami Herald:
  December 2, 2000, article......................................   200
  January 19, 2001, article......................................   202
  January 22, 2001, article......................................   204
Milwaukee Journal Sentinel, article..............................   208
MSNBC.com, article...............................................   213
National Public Radio, July 25, 2002, interview..................   214
National Review, June 11, 2007, article..........................   218
New York Times, November 2, 1990, article........................   220
Organizations requesting the Federal Bureau of Investigation to 
  investigate potential violations of the Voting Rights Act, 
  joint letter and attachments...................................   222
People for the American Way, Washington, D.C., statement.........   231
Roberts, Patricia M., President, Citizens Against Un-American 
  Voter Intimidation, Washington, D.C., statement................   237
Shelton, Hilary O., Director, Washington Bureau, National 
  Association for the Advancement of Colored People (NAACP), 
  Washington, D.C., statement....................................   244
Toledo Blade, October 19, 2004, article..........................   247
Trasvina, John, President and General Counsel, Mexican American 
  Legal Defense and Educational Fund (MALDEF), Los Angeles, 
  California, statement..........................................   250
U.S. District Court, District of South Dakota, Southern Division, 
  complaint, memorandum in support of complaint, and temporary 
  restraining order..............................................   254
Wall Street Journal, June 13, 2007, article......................   270
Washington Post, October 25, 1986, article.......................   272


  PREVENTION OF DECEPTIVE PRACTICES AND VOTER INTIMIDATION IN FEDERAL 
                           ELECTIONS: S. 453

                              ----------                              


                         THURSDAY, JUNE 7, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 2:05 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin, presiding.
    Present: Senators Cardin, Feingold, and Hatch.

 OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR 
                   FROM THE STATE OF MARYLAND

    Senator Cardin. The Judiciary Committee will come to order.
    First, I want to thank Chairman Leahy for holding these 
hearings today in regards to the ``Prevention of Deceptive 
Practices and Voter Intimidation in Federal Elections, S. 453'' 
and thank him for his leadership on this issue and allowing me 
to chair the hearing today.
    After having served in elective office in Annapolis for 20 
years and in Washington for 20 years, I understand that 
campaigns are a rough and tumble business. I expect that 
candidates will question and criticize my record and judgment, 
and voters ultimately have the right to choose their candidate.
    What goes beyond the pale is when campaigns use deceptive 
tactics to deliberately marginalize and disenfranchise minority 
voters. Sadly, this tactic was seen in the 2006 elections. 
These tactics seem to be deliberately targeted to minority 
neighborhoods and are blatant attempts to reduce minority 
turnout.
    In previous elections we have seen deceptive literature 
distributed which gave the wrong date for the election, the 
wrong times when polling places were open, and even suggested 
that people could be arrested if they had unpaid parking 
tickets or unpaid taxes and tried to vote. Other literature 
purported to give a different general election day for 
Republicans and Democrats.
    So I want to start the hearing today by going through a few 
examples of actual literature that was distributed in recent 
elections. These fliers will be made part of our record of our 
Committee, without objection. And, in particular, I want to 
thank the Lawyers Committee for Civil Rights Under Law and its 
Executive Director Barbara Arnwine and Jonah Goldman, the 
Director of the National Campaign for Fair Elections for 
categorizing and documenting these practices.
    Let me first show you Exhibit 1, which is from Jefferson 
County, Alabama, which gives the wrong day for the election.
    Exhibit 2 is one that I am very familiar with, which was 
used in the Maryland elections and purports to have the 
endorsement of prominent African-Americans. The person who was 
running on the Republican ticket, when two of these prominent 
African-Americans, was, in fact, the Democratic candidate. 
These types of deceptive literature are despicable and 
outrageous. It is clearly designed to mislead African-American 
voters. Maryland voters have a legal right to vote and pick the 
candidate of their choice. I was also upset to learn from the 
Washington Post that the Republican Party had instructed their 
poll watchers to challenge voters in an effort, I believe, to 
suppress minority vote.
    Exhibit 3 is from Franklin County, Ohio, in the 2004 
election campaign. It said that due to ``confusion caused by 
unexpected heavy voter registrations'' that Republicans should 
vote on Tuesday and Democrats should vote on Wednesday.
    Exhibit 4 is from Allegheny County, Pennsylvania, in the 
2004 general election. It stated that ``due to immense voter 
turnout'' that Republicans should vote on--I am sorry. I think 
I mixed up the two. This is the one that has on Tuesdays and 
Republicans should vote--Democrats should vote on Wednesday.
    Let me go to Exhibit 5, which is from Orange County, 
California, in the 2006 general election. The distinguished 
President and General Counsel of the Mexican American Legal 
Defense and Education Fund John Trasvina, who will be 
testifying later--the original version is in Spanish and we 
have a translation in English. The letter was sent to 
individuals who had recently registered to vote. Paragraph 2 
warns the individual, in part, that if they are immigrants that 
``voting in a Federal election is a crime that can result in 
incarceration and possible deportation for voting without the 
right to do so.''
    Exhibit 6, I return to Maryland and Baltimore City, in the 
2002 elections. It gives the wrong date--November 6th--for the 
election. It was distributed in minority communities, and it 
warns voters to pay parking tickets, motor vehicle tickets, 
overdue rent ``before you come to vote.'' It also warns them 
about ``any warrants.''
    And, last, Exhibit 7 is from Milwaukee, Wisconsin, in the 
2004 general elections. The flier contains ``some warnings for 
election time'' and states that you can only vote once a year; 
and if you are found guilty of anything, even a traffic ticket, 
that you cannot vote in the Presidential election; and that it 
you ``violate any of these laws you can get 10 years in prison 
and your children can be taken away from you.''
    Now, what is in common with all seven of these exhibits is 
that they were targeted to minority communities in an effort to 
suppress minority vote. It has been 137 years since Congress 
and the States ratified the 15th Amendment to the Constitution 
in 1870, which states that ``the right of citizens of the 
United States to vote shall not be denied or abridged by the 
United States or by any State on account of race [or] color.'' 
The amendment also gave Congress power to enforce articles by 
``appropriate legislation.'' African-Americans suffered through 
nearly another 100 years of discrimination at the hands of Jim 
Crow laws and regulations, designed to make it difficult if not 
impossible for African-American to register to vote due to 
literacy tests, poll taxes, and outright harassment and 
violence. It took Congress and the States nearly another 
century until we adopted the 24th Amendment to the Constitution 
in 1964, which prohibited poll taxes or any tax on the right to 
vote. In 1965 Congress finally enacted the Voting Rights Act, 
which once and for all was supposed to end discriminatory 
actions against voters based upon race.
    It is time for Congress to once again take action to stop 
the latest reprehensible tactics that are being used against 
African-American, Latino, and other minority voters to 
interfere with their right to vote. I particularly want to 
thank my colleagues Senator Obama and Senator Schumer, and I am 
pleased to join them with S. 453, a bill that would allow the 
Federal Government to say clearly that these are illegal 
tactics and to use our influence to make sure that they are not 
part of any elections.
    In the House I understand that similar legislation, H.R. 
1281, has been approved by the House Judiciary Committee and is 
awaiting action in the full House.
    I also want to thank one of my predecessors in the Senate, 
the Honorable Mac Mathias, a Republican from the State of 
Maryland, for his thoughtful letter of June 4, 2007. Senator 
Mathias is with us today, and I thank you very much for gracing 
our Committee room, one of the really outstanding Members of 
the U.S. Senate. And, Senator Mathias, if I might, I would like 
to just quote from part of your letter:
    ``While the methods employed to deter voting differ today 
from those in vogue 40 years ago, the deplorable objective 
remains the same: to help destroy the integrity of the election 
process by suppressing participation, especially by minorities. 
Because these more modern methods of coercion and intimidation 
do not fall neatly within the gambit of current law, 
legislation amending Section 1971(b) is needed. I believe S. 
453 fills that gap admirably.''
    Recently we celebrated the 42nd anniversary of the voting 
rights march of Selma, Alabama. Our own House colleague, 
Congressman John Lewis from Georgia, was savagely beaten and 
tear-gassed by police for peacefully marching and protesting on 
what is now known as ``Bloody Sunday.'' He and so many others, 
including Dr. Martin Luther King, Jr., ultimately led a 
peaceful march into Montgomery to help their fellow citizens 
register to vote. Media coverage of the mistreatment of our own 
American citizens garnered worldwide attention and led 
President Johnson to introduce the Voting Rights Act. Congress 
passed this historic Act in less than 5 months.
    Today we have the obligation and the duty to fulfill the 
promises made by Congress and the States nearly 140 years ago, 
after the end of the Civil War, and over 40 years after the 
enactment of the Voting Rights Act.
    [The prepared statement of Senator Cardin appears as a 
submission for the record.]
    At this time I would recognize Senator Feingold for opening 
comments.

STATEMENT OF HON. RUSSELL D. FEINGOLD, A U.S. SENATOR FROM THE 
                       STATE OF WISCONSIN

    Senator Feingold. Thank you, Mr. Chairman, for holding this 
hearing. I have to leave shortly for a hearing of the 
Intelligence Committee, but I want to thank you for recognizing 
me to say a couple of words, and I am honored to be in the 
presence of Senator Mathias as well and my colleagues on this 
panel.
    I strongly support this bill, and I am pleased to join you 
as an original cosponsor. S. 453 targets the deceptive 
practices and voter suppression tactics that have become 
endemic in American elections since the enactment of the Voting 
Rights Act. This bill would have been timely 20 years ago. 
Today, Mr. Chairman, it is essential. Voter suppression tactics 
poison the democratic process, especially because they are 
frequently used against the most vulnerable segments of the 
electorate. Young people, racial and ethnic minorities, and the 
elderly are too often subjected to misleading phone calls, 
threatening fliers and intimidating so-called ballot security 
programs designed to keep them from exercising their right to 
vote. These tactics strike at the heart of our democracy. They 
are nothing less than an attempt to undermine the hard-won 
gains of the civil rights movement. Every anonymous flier, 
every thug at a polling place, every caging list is a reminder 
that Jim Crow was not that long ago.
    This bill represents a renewed commitment to protecting and 
strengthening the right to vote for all Americans. We have a 
responsibility to fight back against those who commit these 
acts, to protect the people they victimize, and to preserve the 
integrity of the electoral process.
    Mr. Chairman, some people have questioned whether this bill 
is necessary and even whether voter suppression actually 
occurs. I submit there is ample evidence--a shameful amount of 
evidence--of these deceptive practices accumulated over a 25-
year period. Let me discuss just a couple examples, some of 
which may be familiar to my colleagues and our witnesses today.
    In 1986, the RNC implemented a caging program in Louisiana 
designed to, in the words of one RNC operative, ``eliminate 
60,000 to 80,000 folks from the rolls and keep the black vote 
down considerably.'' For the record, I have a Washington Post 
article which details that caging program.
    In 1990, 150,000 North Carolina voters, most of them 
African-American, received postcards which falsely claimed that 
a voter was ineligible unless he or she had lived in the same 
voting precinct for 30 days before the election. I will submit 
a New York Times article about that incident for the record.
    In 2000, a Federal judge found ``there was intimidation 
particularly targeted at Native Americans in Charles Mix 
County, South Dakota, by persons who were acting on behalf of 
the Republican candidate for the U.S. Senate. The judge issued 
a temporary restraining order prohibiting Republican campaign 
workers from following Native Americans from the polls and 
taking down their license plate numbers. I have a copy of that 
temporary restraining order for the record.
    Finally, I want to comment on the flier that Senator Cardin 
mentioned which appeared in certain African-American 
neighborhoods in Milwaukee in 2004. It provides a series of 
blatantly false statements, including a warning to voters that, 
``If you have ever been found guilty of anything, even a 
traffic violation, you can't vote in the Presidential 
election.'' The flier states that, ``If you violate any of 
these laws, you can get 10 years in prison and your children 
will get taken away from you.''
    Unfortunately, this kind of flier is not unique to 
Wisconsin or to the 2004 election. Attorney General Gansler 
refers to a very similar flier in his testimony which appeared 
in Baltimore in 2004. Indeed, this kind of flier, which 
represents one of the worst kinds of voter suppression, has 
been endemic to American elections for the last 50 years.
    I will place in the record the text of a flier distributed 
in Texas in 1964, a year before the Voting Rights Act. The 
flier says that a list of voters has been drawn up to be 
arrested after the vote for committing any of a list of 
offenses, including unpaid traffic and parking tickets, having 
been questioned by the police, and delinquent child support 
payments.
    Some may think these kinds of tactics are humorous or just 
run-of-the-mill political dirty tricks. I disagree. People who 
create and distribute these kinds of fliers are attempting to 
intimidate their fellow citizens into not exercising the 
franchise that is guaranteed to all of us. This bill is the 
Senate's opportunity to fight back on behalf of citizens and 
voters, and I again thank the Chair for the hearing and for 
letting me make my remarks.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Senator Cardin. Thank you very much, Senator Feingold.
    Our first panel are two of our colleagues who have been 
leaders in regards to strengthening our laws against crime and 
ensuring the integrity of our system for all of our citizens. I 
am pleased to recognize the Honorable Charles Schumer and the 
Honorable Barack Obama. It is a pleasure to have you on our 
panel.

 STATEMENT OF HON. CHARLES E. SCHUMER, A U.S. SENATOR FROM THE 
                       STATE OF NEW YORK

    Senator Schumer. Thank you, Mr. Chairman, and first I want 
to thank you, Senator Cardin, for the incredibly good work you 
have done on this issue. Your experiences in Maryland have 
proved to be a starting point for your getting involved in 
making sure we do something nationally as it affects all the 
States, and I thank you for it.
    And, of course, I want to thank my colleague and the lead 
sponsor on this legislation, Senator Obama, who, again, felt 
just as we did, when hearing about these things, they make your 
blood boil. And he has worked very carefully and thoughtfully, 
as is usual, on putting together both a strong but effective 
and balanced piece of legislation.
    I also want to thank Chairman Leahy for allowing us to hold 
this hearing.
    The right to vote is the wellspring of our democracy. It is 
the most cherished right of citizenship. Yet far too often, our 
elections are marred by a troubling pattern of 
disenfranchisement by deception.
    We are seeing--and it is more frequent now than before--a 
host of cynical and concerted efforts to keep voters away from 
the polls and to interfere with their choice of candidates. All 
too frequently, these dirty tricks target minority or 
disadvantaged communities. Make no mistake about it: These 
deceptive and intimidating practices are a form of 
disenfranchisement just as surely as poll taxes were. And we 
have seen the examples. I am not going to repeat them because 
you held them up, Mr. Chairman.
    These deliberate lies and all the deceptive practices we 
have seen in recent elections are, in a word, repugnant. They 
are despicable. I call them disgusting. They are an affront to 
the civil rights and intelligence of the voters, and they 
insult our democracy. They go beyond--you know, we all know 
that, as Boss Plunkett said back in the 1870s, ``Politics ain't 
bean bag.'' And people respect that, and campaigns these days 
are very tough. But this goes way beyond that. This goes to the 
health, the vitality of a democracy. And when things like this 
are allowed to happen, it really says something about the 
status of democracy in America.
    And yet when these dirty tricks, these poisons occur, they 
are not prosecuted, and that is because it is not a Federal 
crime to disenfranchise voters by deception. The literature 
that you experienced in your election, Senator Cardin, well, I 
was furious, and even before you were actually sworn into 
office, I was pushing the Justice Department to investigate 
these fliers. They told me there was no legal basis to do so. 
If there was ever an evidence that spoke overwhelmingly in 
favor of the law we are pushing, it is that statement from the 
Justice Department that they cannot do anything about it.
    So we have the power and responsibility to give the 
Department of Justice the tools to investigate and punish acts 
of voter deception and intimidation. Our bill recognizes that 
voter disenfranchisement by deception is just as serious as 
voter intimidation, which has long been criminalized. And the 
penalties are tough--up to 5 years in jail. Somebody who does 
this, Mr. Chairman, does not deserve a slap on the wrist or 
even a fine. They deserve to go to jail just like a bank robber 
does because they are robbing people of their democracy. And I 
think the penalties are tough but deserved. I mean, the people 
who do these things make my blood boil far more than people who 
do hard-hitting campaign ads, even ads that might be below the 
belt.
    So our bill is tough, but at the same time it is narrowly 
tailored to protect both free speech and the right to vote. It 
does not just cover any information communicated during an 
election. It focuses on voter access to basic and verifiable 
facts that are essential to exercising the right to vote. The 
basic facts are where, when, and how you can cast a vote, 
whether you are eligible to vote, and whether an organization 
or person you trust has endorsed a particular candidate. So it 
is very limited, but very focused.
    With our bill, the Justice Department's tools will not be 
limited to punishing wrongdoers after the fact. The Department 
will have a responsibility to communicate corrected information 
in order to undo the damage by deceptive practices before the 
polls open so that the damage can be undone.
    Let me be clear about what this bill will not do. It will 
not criminalize honest mistakes. Only deliberate lies that have 
no place in our democracy will be prosecuted. It will not 
impede legitimate political speech. It is narrowly tailored, as 
I mentioned.
    And let me say, Mr. Chairman, this should not be a partisan 
issue. We should have people on both sides of the aisle 
supporting this because we all care equally about our 
wonderful, long-lived, and cherished democracy.
    Opponents of this legislation may claim that it is 
unnecessary or flawed. I could not disagree more. The bill is 
urgently needed, it is carefully crafted, and it is no more 
than what we owe the voters across America.
    I would ask unanimous consent my entire statement be placed 
in the record, and thank you for having this hearing.
    [The prepared statement of Senator Schumer appears as a 
submission for the record.]
    Senator Cardin. Without objection, the statements of all 
the witnesses will be included in the record.
    Senator Obama, the principal sponsor of S. 453, we thank 
you very much for your leadership on this issue and so many 
other issues of concern to enfranchise the people of our 
country.

 STATEMENT OF HON. BARACK OBAMA, A U.S. SENATOR FROM THE STATE 
                          OF ILLINOIS

    Senator Obama. Thank you very much, Senator Cardin, and I 
want to thank Senator Feingold for being here and Committee 
Chairman Leahy for holding this hearing. I want to express my 
thanks to Senator Mathias for coming in and for his statement.
    The essence of this is how can we bolster the integrity of 
our electoral system. In January, I was pleased to reintroduce 
the Deceptive Practices Act and the Voter Intimidation Poverty 
Act along with my colleague Senator Schumer. And he has shown 
outstanding leadership on this issue, and I am very grateful 
for all his help.
    Several other members of this Committee, such as Chairman 
Leahy, Senators Feingold and Kennedy, and, of course, yourself, 
Mr. Chairman, have joined this bill. I am also honored that 
there is a companion bill in the House that is supported by 
Judiciary Committee Chairman John Conyers.
    I also want to thank the many groups that have endorsed 
this legislation for their support. A number of them are here 
today, especially the People for the American Way, the Lawyers 
Committee for Civil Rights under the Law, the Mexican American 
Legal Defense and Education Fund, the NAACP, and Common Cause.
    It is hard to imagine that we should need a bill like this, 
but, unfortunately, there are people who will stop at nothing 
to try to deceive voters and keep them away from the polls. And 
what is worse, these practices often target and exploit 
vulnerable populations such as minorities, the disabled, the 
elderly, and the poor. While these practices have a long 
history, we saw some high-profile examples of this in the 2006 
election cycle. You, Mr. Chairman, experienced some egregious 
examples of it, and you have mentioned, as have Senator Schumer 
and Senator Feingold, some of those other examples.
    Of course, most of these pieces of literature that are 
distributed have no basis in fact. They are made with only one 
goal in mind: to keep Americans away from the polls. We see 
these problems year after year in election after election, and 
my hope is that this bill will finally stop these practices in 
time for the next election.
    The Deceptive Practices and Voter Intimidation Prevention 
Act makes voter intimidation and deception punishable by law, 
and it contains strong penalties so that people who commit 
these crimes suffer more than just a slap on the wrist. The 
bill also seeks to address the real harm of these crimes--
people who are prevented from voting by misinformation--by 
establishing a process for reaching out to those misinformed 
voters with accurate information before the time is completed 
for them to be able to vote so that they can actually cast 
their votes in time.
    Now, there are some issues in this country that are 
inherently difficult and inherently political. We are dealing 
with one right now on the floor with immigration. There are a 
lot of conflicting interests and conflicting values at stake 
there. But making sure that every American is able to cast a 
ballot should not be one of those difficult issues. There is no 
place for politics in this debate, no room for those who feel 
that they should be able to gain partisan advantage by keeping 
away people from the polls.
    As members of this Committee know all too well, politics 
have colored some of the recent actions of the Department of 
Justice, so our bill includes a private right of action to 
ensure that individuals who are victims of deceptive 
information have legal recourse if an Attorney General turns a 
blind eye to these types of practices.
    The New York Times stated in its January 31st editorial on 
this issue that our bill ``is an important step toward making 
elections more honest and fair. There is no reason it should 
not be passed by Congress unanimously.''
    I would ask, Mr. Chairman, that this editorial be placed 
into the record.
    Senator Cardin. Without objection, it will be.
    Senator Obama. In conclusion, I think it is time to deal 
with this problem in a bipartisan fashion. I look forward to 
working with you, Mr. Chairman, Chairman Leahy, Ranking Member 
Specter, my outstanding colleague Senator Schumer, and those on 
the House Committee who are also interested, to make sure that 
we pass this legislation this year.
    Thank you very much.
    Senator Cardin. Well, let me thank both of you for your 
testimony.
    Let me just make an observation and try to get your 
response to it. I saw this type of literature in 2002 and in 
2004 and was outraged by it. It was difficult to trace who was 
putting out the literature. Sometimes it appears with no real 
responsible individual willing to claim that they put out the 
material. But in 2006, it was blatant. In my State, it was a 
major political party's candidate for Governor and the U.S. 
Senate that just put that literature out the night before the 
election without any hesitation whatsoever and thought it was a 
good campaign strategy, that one of the strategies that we all 
use in campaign is get out the vote. We try to get out our 
vote. We spend a lot of resources knocking on doors and making 
phone calls and sending literature to communities in which we 
are trying to get people out to vote.
    So I expect their attitude was, well, if getting out the 
vote is OK, what is wrong with trying to suppress the vote? 
What is wrong with that tactic as part of a way to win 
elections? It is pretty effective. If I can keep the minority 
vote numbers down, it has an impact on who is going to win the 
election.
    I find that just unacceptable, as I know you two also 
believe. But it seems to me we have to set the ground rules 
because if you do not set the ground rules, what happened in 
2006 is only going to accelerate, and you will see more and 
more of these blatant efforts to affect the outcome of 
elections.
    So I just really want to get your observations on that. How 
far can we go in this area? And how does the First Amendment 
play into making sure that we get it done right?
    Senator Obama. Well, look, political speech is the most 
valuable and most protected speech, and we are very careful to 
make sure that that speech is not impacted by this bill. 
Political speech does not encompass the right to deliberately 
lie or provide misinformation to voters in order to suppress 
the vote. And so that is the line that we draw on this bill. We 
are very careful to make sure that it is not impacting 
political speech that says Senator Obama voted against such-
and-such or has failed his constituents on this issue or that 
issue. That obviously is appropriate--not always comfortable 
but appropriate.
    Senator Schumer. Blatantly false.
    [Laughter.]
    Senator Obama. Absolutely. So I think that you make the 
broad point properly, Mr. Chairman, and that is that there is a 
great difference between trying to increase your own vote and 
suppressing somebody else's vote. And those are tactics that 
are not acceptable.
    We think that this is a useful baseline, as you put it. 
There are still going to be some areas that are not reached by 
this bill. The New York Times noted that one of the most 
egregious tactics that was used were these robo-calls that were 
used under the guise of one candidate trying to get the vote 
out, essentially irritating people so badly that it suppressed 
potential voters in certain areas.
    You know, there are always going to be some dirty tricks 
out there that are employed. What we do not want to do, though, 
is to permit some of these tactics that we can deal with from 
preventing people from exercising their franchise and 
maintaining a robust democracy.
    Senator Schumer. Senator Obama said it all.
    Senator Cardin. I think it is a healthy message. It makes 
it clear what we are attempting to do, and if this bill becomes 
law--and I certainly hope it will be--it puts political parties 
and candidates on notice.
    Senator Obama. And I think you make a very important point, 
Mr. Chairman. Some of this is prophylactic. If people know that 
the law takes this seriously, they will not do it. The reason 
that a lot of these practices are engaged in right now is 
because people feel as if there are no consequences to these 
actions.
    Senator Schumer. We did debate whether there should just be 
a fine or jail time, which obviously is far more serious, 
taking away someone's freedom. And I think the consensus not 
only among ourselves as the sponsors but among many people and 
experts we talked to is that jail time is perfectly appropriate 
and necessary so that people do not think it is just a slap on 
the wrist or you pay a price for doing this.
    Senator Cardin. Well, and I applaud you for that. I think 
you made the bill tough, but you have also focused it. You have 
erred on the side of making it a narrowly focused bill so that 
it does meet the constitutional test, and I think you needed to 
do that. But I also do think it is a clear message that, yes, 
we understand you may be able to figure out ways to try to get 
around this bill, but that is not what we should be doing. We 
should be, as Americans, trying to figure out ways to win 
elections clearly on the issues and on legitimate campaign 
strategies and not trying to suppress minority vote.
    Let me thank both of you for your leadership on this issue 
and for being here. I appreciate it.
    Senator Cardin. Our second panel, I am very pleased to have 
the Attorney General of the State of Maryland, the Honorable 
Doug Gansler. Attorney General Gansler is the former State's 
Attorney of Montgomery County, and he has broad experience in 
the criminal justice system and has a distinguished career in 
our State and is the new Attorney General for the State of 
Maryland.
    We also have the County Executive from Prince George's 
County, Maryland, Jack Johnson. Jack is also a former 
prosecutor, former State's Attorney from Prince George's County 
and has a very distinguished record as the State's Attorney 
significantly reducing crime in Prince George's County, which 
is, of course, our neighboring county. It borders the District 
of Columbia. He has done a super job as our leader in Prince 
George's County.
    It is a pleasure to have both of you before our Committee, 
and we will start off with General Gansler.

 STATEMENT OF HON. DOUGLAS F. GANSLER, ATTORNEY GENERAL, STATE 
                OF MARYLAND, BALTIMORE, MARYLAND

    Mr. Gansler. Thank you, Senator, and thank you for your 
leadership on this issue. Immediately after the election, 
Senator Cardin, you called our office and we got together. 
While we have put together a task force to look at voter 
irregularities on the State level, your leadership here on the 
Federal level has clearly been exemplary. And I want to also 
think the principal sponsor, Senator Obama, and Jack Johnson 
for being here today. He is going to focus on the issues in 
Prince George's County. And I would like to mention the 
Director of our Civil Rights Department of the Attorney 
General's Office, Carl Snowden, is here as well.
    I would like to focus my comments--my testimony is in the 
record, but I would like to focus my comments on the question 
you asked, Senator, regarding the juxtaposition of the First 
Amendment with this bill. It seems to me there are three 
categories of deceptive communications at issue here in 
elections.
    The first is the mischaracterization of a candidate's 
viewpoint. One of the most classic examples would be the Willie 
Horton ads of days gone by, where you take a situation out of 
context. It is fair game, it is protected by the First 
Amendment, it is somewhat insidious and adds cynicism to the 
process, but it is protected by the First Amendment.
    The second category would be the category that is addressed 
by this bill and one that Mr. Johnson is going to be talking 
about, which is the flier in Prince George's County, which is 
really akin to libel; that is, it is knowingly making a false 
statement in an effort to sway a particular voter or voters. 
The Prince George's County flier would be the classic example 
of that when these three people clearly endorsed somebody else 
and then on election day all of a sudden they are purported to 
have endorsed a different candidate.
    My comments would focus and I think the bill properly 
focuses on the third category, and the third category is 
statements, deception that is not focused on swaying a 
particular candidate--or a particular voter to vote for a 
particular candidate; that is, it is not aimed at persuasion 
but aimed at suppression. And that is the problem, and that is 
what this bill addresses. It may or may not be motivated by 
wanting to sway voters toward a particular candidate or away 
from a particular candidate. But the motives are irrelevant, 
and that obviously is the case in the Baltimore City case where 
it says, ``Urgent Notice. Come out to vote on November 6th.'' 
The election was not on November 6th.
    ``Before you come to vote, make sure you pay your parking 
tickets, motor vehicle tickets, overdue rent, and, most 
important, any warrants.'' Now, that does not talk about any 
candidate at all. What that is aimed at is voter suppression, 
keeping people away from the polls, which is precisely why the 
1965 Voting Rights Act was passed in the first place.
    This legislation that is put forward takes a measured 
approach to addressing the important issue, imposing penalties 
for deceptive communications where the communication does two 
things: first, the person who puts it out knows the information 
to be false; and, second, acts with the intent to prevent 
another person from exercising the right to vote in an 
election. The legislation properly, in my view, respects the 
First Amendment's guarantee of freedom of speech while 
recognizing the strong Federal interest in safeguarding the 
right to vote and prohibiting tactics that have frequently been 
employed in racially discriminatory ways.
    The examples of such tactics that have been discussed today 
illustrate that shame has proved to be an insufficient 
deterrent in this area for those who would engage in such 
practices. Senate Bill 453 is an important component of what 
has to be a comprehensive approach, at both the Federal and 
State levels, to ensuring that voter rights are protected.
    So I strongly endorse the bill and its passage. I commend 
you, Senator, for your leadership and thank you for the 
opportunity to testify today.
    [The prepared statement of Mr. Gansler appears as a 
submission for the record.]
    Senator Cardin. Mr. Johnson?

  STATEMENT OF HON. JACK B. JOHNSON, COUNTY EXECUTIVE, PRINCE 
      GEORGE'S COUNTY, MARYLAND, UPPER MARLBORO, MARYLAND

    Mr. Johnson. Mr. Chairman, I am very pleased to be here and 
actually honored to be here. Let me begin by offering my 
support for S. 453. It is absolutely critical that this bill is 
passed.
    Let me talk about two things. On the evening of the 
election, as I traveled the county, I saw thousands of signs 
that said, ``We are not slave to the Democrats.'' 
Interestingly, the signs were in the very same colors of this 
sign--red, black and green. And what it referenced is the dark 
period in our history, and it dealt with the whole substance of 
slavery. And, in essence, what it said was that the Democrats 
were treating African-Americans as slaves.
    Interestingly, our county is a very large African-American 
community, and I believe that that literature was designed to 
suppress the African-American vote on the next day of the 
election.
    Now, I am not sure whether that is illegal, and I am not 
sure that that is not protected. But the point is that it is so 
egregious and designed to suppress the vote.
    Now, the African-American tie to slavery and the Democratic 
Party issue pales in terms of what I saw the next morning. As I 
said, this slavery signage paled by comparison with what I 
encountered on election day. I woke up and went to the polls 
early to gauge what was going on, as I often do. I went to my 
polling place and saw someone I did not know handing out 
literature saying that I was supporting the candidate for U.S. 
Senate who was a Republican. The literature said, ``These are 
Our Choices.'' On the cover was my picture, the leader of the 
Democratic Party allegedly endorsing not only the Governor, who 
is a Republican, but also the candidate for the U.S. Senate. 
This was a falsehood. I do not believe--it is deceptive, it was 
a hoax, and I do not believe at all that it is free speech 
protected by the First Amendment.
    Phone calls came early and often that election day. Angry 
citizens wanted to know why I was a turncoat and why I had 
abandoned the Democratic Party. I was simply flabbergasted that 
my name and likeness could be appropriated in such a manner. 
Rather than using my time to visit with voters and discuss 
issues that were of concern to me and the county, I spent the 
entire day, Mr. Chairman, as you know, trying to inform 
citizens that this was a hoax and that it was not true.
    The outrage continued all day as we learned that the people 
that were distributing this literature came in early that 
morning from Philadelphia, all of them homeless, having been 
promised a ride back home as well as $100. Many of them were 
later abandoned at the polling places, and many of them, when 
they found out the truth, decided that they would not pass out 
this literature. Delegate JoAnne Benson and others had to reach 
into their own pockets and pay many of the homeless people 
rides back to Philadelphia. Of course, everyone denied that 
they had anything to do with these fliers. No one had no way of 
knowing how it happened, and nobody knew anything.
    Many citizens told me they saw my face on the literature 
and voted accordingly. Voters should not expect to see signs 
posted about being slaves, and voters should not be handed a 
false ballot with pictures of people they have come to trust 
and respect purportedly supporting candidates they have never 
endorsed. And let me say I found it just so offensive that, 
again, my likeness and my name would be associated with the 
Republican Party endorsing these candidates.
    I want to make clear, though, that as a Democrat, I do vote 
for various people, and I saw Mac Mathias, Senator Mathias 
here, and that was the first vote that I cast when I was a 
young person and first moved to the State of Maryland, voting 
for Mathias because I knew the record he had on civil rights, 
justice, liberty, and the things that are important.
    I have seen firsthand the lingering vestiges of slavery and 
Jim Crow laws. The memories pain me, and those who live in our 
county and throughout America. There are those who seek to 
exploit this sad history, but I have confidence that this and 
other practices I described here today can be curtailed with 
the adoption of S. 453. I urge you to support and I urge that 
the Congress will support this piece of legislation. It is 
absolutely important.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Johnson appears as a 
submission for the record.]
    Senator Cardin. Let me thank both of you for your 
testimony. Senator Mathias wanted to be here today. He knew 
what the hearing was about and wanted to be here, and it was 
not easy for him to physically get here. And, without 
objection, we are going to put his letter into the Committee 
record. I appreciate both of you acknowledging that.
    Jack, you are rather calm today, but I remember talking to 
you the day before the election, and you were not quite as 
calm. There was a pattern in Maryland. You mentioned the 
slavery posters that were up, that we do not know for sure who 
put up those posters because they were not identified. But it 
was part of a pattern to try to anger African-American voters 
so perhaps they would not show up to vote. They knew that a 
large number would not vote Republican. If they could just keep 
the numbers down, it would help the Republican candidates.
    But then we did see this brochure that you refer to that 
came out the night before the election, and that has the 
authority line of the Republican candidate. So we know who put 
that out, and that is clearly, as you put it, a hoax. 
``Misleading'' is, I think, kind to it. But once again, it was 
an effort to try to confuse minority voters in the largest 
jurisdiction in Maryland of minority voters, Prince George's 
County, a critical county in the election.
    And then we also know about the busing in--by the way, we 
know that that was paid for by the Republicans because it was 
acknowledged, bringing in homeless people from Philadelphia who 
had no idea what they were doing. They thought they were 
getting a job in Maryland handing out the literature on 
election day so they could have an African-American face 
handing out the literature in the polling places--again, to try 
to adversely affect the minority vote.
    But it goes beyond that. The Republicans had control of the 
election process because we had a Republican Governor, and as I 
have talked to the Attorney General about, in Prince George's 
County and in Baltimore City, the two large jurisdictions of 
African-American voters, there were more voting machines that 
did not function and the lines to vote were the longest. I 
visited Prince George's County late on election day and was 
shocked to find out that the average wait to vote in many of 
the precincts in Prince George's County was 2 hours to cast a 
vote.
    Now, that was not true in other jurisdictions in our State. 
Where I voted, it took me 10 minutes to vote during a pretty 
busy time.
    So you put all this together, and you see where there were 
instructions that the Republicans had at one point to start 
challenging--have their poll watchers challenge voters 
indiscriminately, again, in order to, we think, make the lines 
longer.
    This is a pattern to try to win an election by diminishing 
a vote, not increasing a vote. And it has got to be dealt with 
because it is the poll tax of our time.
    I know the bill that is before us is narrowly focused 
because we need to do that constitutionally. I do not think we 
could outlaw the slavery-type poster. I would like to do it. I 
would hope that people would be outraged by it and it will not 
have the intended effect, and that the robo-call that you 
referred to was pretty clever, because it was somewhat of an 
obnoxious robo-call mentioning the opponent's name over and 
over again hoping that people would hang up and think that he 
was the person that was calling in order to aggravate voters.
    But it seems to me, Attorney General Gansler, that we need 
to look at strengthening not only the Federal laws but State 
laws in order to make these types of patterns illegal and to 
give both parties due notice that we will not tolerate that 
type of conduct by our political parties or by our candidates.
    Mr. Gansler. I agree with that, Mr. Chairman, and I think 
this bill deals with the speech conduct, the deceptive speech, 
and that ought to be Federal because it should not--this type 
of conduct, just like poll taxes and literacy tests were 
outlawed by the Voting Rights Act of 1965, this is really an 
extension of that, and that ought to be pervasive throughout 
the country.
    On the State level, each State, unfortunately, or 
fortunately, has a different method by which they vote, 
different machines, actually different technology, and so 
forth. In Maryland, we have assembled a task force, and your 
office and you have been instrumental in looking at those 
issues as well. And I was the same way. I was absolutely 
disgusted at what I saw in a placed called Evangel Cathedral in 
Prince George's County. I was there at 11 o'clock, and people 
literally took 3 hours to vote. Of course, what was heartening 
was how many people stayed there to exercise their franchise. 
What was discouraging were the people who had 1 hour for lunch 
and had to leave.
    We are going to look at it on the State level as to why 
that happened, how it happened, and, most importantly, to make 
sure it does not happen again--without really casting blame and 
going back, because there is no law, there is nothing to 
enforce there, but just to make sure it does not happen and 
make sure we have the laws on the books so that we can enforce 
it if, in fact, it happens again next time, because it is hard 
enough to get people to go out and vote. There is a lot of 
cynicism involved in politics and whether somebody's vote 
counts. Much of that is because of the nature of the political 
ads we have, and what this bill does is make sure that the 
political ads at least stop at a particular line, a line 
protected by the First Amendment, and does not cross that line 
into libel or into content that is specifically designed to 
suppress the vote. But on the State level, we also have to take 
measures as well.
    Senator Cardin. Right.
    Mr. Johnson. Senator, if I could just say that I wanted to 
put the entire concept of what happened in Prince George's 
County in context. You are absolutely right, I am calm today, 
but on election night it is probably the most important 
election we have had in 25 years in Prince George's County. The 
U.S. Senate was on the line. It is not one sign that said the 
Democrats in a sense enslave black people. The roads were paved 
with it, just for miles along at 10 feet apart at the most. 
``We are not slaves to the Democrats.'' The Democrats are 
enslaving African-Americans in essence.
    Then the next morning you get up and you see a total hoax, 
falsehood, in the terms of a literature that says--and everyone 
knew that being the leader of the Democratic Party and that 
many of the Democrats in the county follow my advice on where 
we should go in the election. So my likeness is crucial in the 
election. It is appropriated, it is stolen, it is taken, and it 
is false.
    Then the other thing is that we go to the polls on election 
day. I walked to my polling place. Not only at my polling place 
I am getting this literature, but, more importantly, the polls 
are not open. It is raining, as you recall. At 7 o'clock, none 
of the machines are open. At 7:30, none of the machines are 
open. At 8 o'clock, the machines are not open. I said, ``What 
is the problem?'' ``Oh, it is a technical problem with a 
computer.''
    I got on the telephone and called our computer experts, 
said, ``Get down here because the polls are not open, and they 
are telling me it is a technology issue. You need to come and 
fix it.''
    My technology chief called everybody--because the 
Government is closed. You have to come in and help fix the 
problem. Many people left because they intended to vote before 
going to work. When they came back in the evening, the lines 
are 2 hours long and they cannot vote. We missed many votes on 
election day. And as you know, this was a critical election. 
The experts said it could go any way. And we lost many votes, 
and they knew that the votes would turn in Prince George's 
County in one election.
    We understand that S. 453 deals with the issue of 
falsehoods, which the First Amendment appropriately protects--
or will allow, but the other issue was designed to show the 
problem that we confront and that I think is confronted all 
over America in having a fair and honest and open election, 
which is the essence of our democracy.
    Senator Cardin. I need to put in the record that I agree 
with you that hundreds, if not thousands, of potential voters 
were denied the opportunity to vote in this past election in 
Prince George's County as a result of the cumulative impact of 
all the methods that we have talked about.
    Having said that, to the credit of the people of Prince 
George's County, you had record turnouts, you had large 
turnouts of voters that stayed and cast their votes. And the 
margin that I received in that election was larger than the 
margin in Baltimore City, which is my base.
    I point that out because the voters of Prince George's 
County I think saw through a lot that was happening.
    Mr. Johnson. They did.
    Senator Cardin. That is not to say that there were not a 
lot of people disenfranchised. There were, no question about 
it. They could not wait 3 hours, as the Attorney General said. 
They could not come back when the polls were not open in the 
morning. They were disgusted by what they saw, and they said, 
you know, ``Forget it. I am not going to show up to vote.'' 
There is no question that it had an impact on the number of 
voters in the county. But I do really congratulate the people 
of Prince George's County, many of whom just said--to wait 3 
hours to vote is quite a commitment, and thousands did that.
    Mr. Johnson. Many people voted after midnight. That is how 
long the polls were--
    Senator Cardin. I know. I was waiting for those precincts 
to come in.
    [Laughter.]
    Senator Cardin. Let me thank both of you again for being 
here today. This is an important subject. I think we can learn 
a lot from the local governments. We are trying to get this 
right. I know that in Maryland we are trying to figure out what 
is the best voting system. There has been a lot of debate here 
in Washington as to the verifiable voting machines, et cetera. 
In Maryland, we changed ours in the last elections, and it has 
been somewhat confusing. But we need to make sure that voters 
can get their votes recorded properly and that tactics that are 
aimed at minority communities are not tolerated. And I know 
that the two of you will be continuing to work with us to make 
sure in our State we handle it correctly. But it is very 
important that you have a Federal partner. And the Justice 
Department has told us, as they told Senator Schumer, that they 
do not believe they have the laws necessary in order to deal 
with this today. That is why Senator Obama has introduced his 
bill, and if we can get that bill through Congress, then I 
think we can give you a Federal partner to try to make sure 
what happened in Maryland does not happen again or does not 
happen any place else in our country.
    Thank you.
    Mr. Gansler. Thank you, Mr. Chairman.
    Mr. Johnson. Thank you.
    Senator Cardin. We will now have panel three: Hilary 
Shelton, the Director of the Washington Bureau, National 
Association for the Advancement of Colored People; John 
Trasvina, President and General Counsel, Mexican American Legal 
Defense and Educational Fund; Richard Briffault, the Joseph 
Chamberlain Professor of Legislation, the Columbia Law School; 
William Canfield, a principal at Williams & Jensen; and Peter 
Kirsanow, Commissioner, United States Commission on Civil 
Rights.
    If I could ask you all to please stand in order to be sworn 
in. Do you affirm that the testimony you are about to give 
before the Committee will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Mr. Shelton. I do.
    Mr. Trasvina. I do.
    Mr. Briffault. I do.
    Mr. Canfield. I do.
    Mr. Kirsanow. I do.
    Senator Cardin. Please be seated. We will start with Mr. 
Hilary Shelton.

 STATEMENT OF HILARY O. SHELTON, DIRECTOR, WASHINGTON BUREAU, 
  NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF COLORED PEOPLE 
                   (NAACP), WASHINGTON, D.C.

    Mr. Shelton. Thank you, Senator. Good afternoon. As you 
said, my name is Hilary Shelton, and I am the Director of the 
NAACP's Washington Bureau, the Federal legislative and national 
public policy arm of our Nation's oldest, largest. and most 
widely recognized grassroots civil rights organization, with 
membership units literally in every State in our country.
    The right to vote has always been an ultimate priority for 
the NAACP. For almost a century, the NAACP has fought against 
those who wish to suppress the votes of African-Americans and 
other racial or ethnic minority Americans through unfair or 
unjust laws, deception and/or intimidation.
    With the enactment of the Voting Rights Act of 1965, it 
became illegal for States or local municipalities to pass laws 
that in any way infringed on a person's constitutional right to 
register and cast an unfettered vote. Subsequent laws and 
reauthorizations of the Voting Rights Act have further 
addressed these tactics and made it harder for a State or a 
local government to infringe on a citizen's right and ability 
to cast an unfettered vote.
    Unfortunately, some people are still so desperate to win 
elections--elections that they fear they cannot rightfully 
win--that they resort to deceptive practices, misinformation, 
and lies to try to keep legitimate voters away from the polls 
or to support candidates whom they might not otherwise vote 
for. It is even more unfortunate that these practices often 
target and exploit many of the same populations that have 
historically been excluded from the ballot box. Specifically, 
vulnerable populations, such as racial and ethnic minorities, 
the disabled and/or poor and senior citizens are often targeted 
by those perpetuating these deceptive practices.
    To put it bluntly, it is now against the law to use 
official means to prevent whole communities of American 
citizens from casting a free and unfettered ballot. Yet there 
are still people and organizations in our country who are so 
afraid of the outcome of our democratic process that they must 
stoop to lies, duplicitous behavior, and intimidation to try to 
keep certain segments of our population and communities away 
from the voting poll.
    That is why the NAACP so ardently supports the Deceptive 
Practices and Voter Intimidation Prevention Act, S. 453, 
introduced by Senators Obama, Cardin, Schumer, Feingold, and 
others. This legislation seeks to address the real harm of 
these crimes--people who are prevented from voting by 
misinformation or intimidation--by establishing a process for 
reaching out to those voters with accurate information so they 
can cast their votes in time and ensure a more genuine outcome 
of the election. The bill also makes voter intimidation and 
deception punishable by law, and it contains strong penalties 
so that people are deterred from committing these crimes, 
knowing that they will suffer more than just a slap on the 
wrist if caught and convicted.
    The fact of the matter is that if an individual wins an 
election by a few votes, even when it can be proven that many 
potential voters were kept away from the voting booth by 
deceptive or intimidating behavior, the winner remains in 
office for the duration of the term. That is why it is so 
important to correct the misinformation before the election is 
over and the damage has been done.
    As we have heard and will hear today, examples of malicious 
deceptive practices, almost all of which targeted racial or 
ethnic minority populations, were rampant as recently as the 
general election in 2006. In Ingham County, Michigan, a 
partisan poll challenger confronted every African-American 
attempting to vote that day. There were no reports of any 
Caucasian voters even being questioned.
    In Orange County, California, 14,000 Latino voters got 
letters in Spanish saying it was a crime for immigrants to vote 
in a Federal election. It did not state or even clarify that 
immigrants who are citizens have the right to vote and indeed 
should.
    In Baltimore, Maryland, misleading fliers were placed on 
cars in predominantly African-American neighborhoods giving the 
wrong date for the upcoming election day.
    In Virginia, registered voters received recorded (robotic) 
calls that falsely stated that the recipient of the call was 
registered in another State and would face criminal charges if 
they came to the polls to vote that day. It was also in 
Virginia that voters received phone calls stating that because 
they were such regular voters they could vote this time by 
telephone, by simply pressing a number at that time for the 
candidate of their choice. The call ended by repeating that 
they had now voted and did not need to go to the polls. The 
disenfranchisement strategies continue.
    In all of these cases, a quick response to expose the lies 
that were told and provide corrected information to get 
legitimate voters to the polls in time to have their vote 
counted was clearly warranted. Unfortunately, nothing was done 
by the Federal Government to aid the clearing-up of these lies. 
It was, therefore, up to the local and national media, as well 
as advocacy groups like ours, to scramble to try to undo the 
damage. While it is difficult to conclusively demonstrate that 
these specific misdeeds had an impact on an election, it is the 
position of the NAACP that if even one lawful voter was 
deceived or intimidated and, therefore, did not cast a 
legitimate vote, that is one too many in a Federal election, 
and the Government must do something.
    When Presidential elections can be won or lost by a few 
hundred votes, it is up to the Federal Government to do all it 
can to ensure that every eligible person who wants to vote can 
and that every vote legitimately cast will be counted.
    It is unfortunate yet necessary that the Deceptive 
Practices and Voter Intimidation Prevention Act needs to be 
passed now, before another election comes, more lies are told, 
and more voters are locked out of our system of democratic 
process.
    The NAACP would like to thank the sponsors and cosponsors 
of S. 453 and H.R. 1281, the companion bill in the House, as 
well as Chairman Cardin and Senators Schumer and Obama for 
their leadership and their demonstrated commitment to this 
crucial issue. The NAACP stands ready to offer the assistance 
of our members, staff, and leadership to do all we can to 
encourage the quick enactment of the Deceptive Practices and 
Voter Intimidation Prevention Act.
    Thank you so much.
    [The prepared statement of Mr. Shelton appears as a 
submission for the record.]
    Senator Cardin. Thank you very much for your testimony.
    Mr. Trasvina?

  STATEMENT OF JOHN TRASVINA, PRESIDENT AND GENERAL COUNSEL, 
 MEXICAN AMERICAN LEGAL DEFENSE AND EDUCATIONAL FUND (MALDEF), 
                    LOS ANGELES, CALIFORNIA

    Mr. Trasvina. Chairman Cardin, Senator Hatch, thank you for 
the opportunity to testify on MALDEF's behalf in support of the 
Deceptive Practices and Voter Intimidation Prevention Act, 
cosponsored by 15 Senators, including 7 members of this 
Committee.
    My colleague Hilary Shelton puts it very, very well. Voter 
intimidation and deceptive practices present serious threats to 
the integrity of the American democratic system. Since our 
founding in 1968, MALDEF has used every legal and policy 
mechanism at our disposal to protect Latino voters from 
election practices that limit our ability to fully participate 
in American democracy. When voters are targeted for 
intimidation, and especially when they are targeted because of 
their race or national origin, all Americans suffer.
    We have recently witnessed serious incidents of voter 
suppression, intimidation, and deceptive practices aimed at 
Latino voters. When a community organizes politically and 
begins to make new political gains, it often becomes subject to 
deliberate attempts to halt its electoral advancement by any 
available means, including the use of deceptive practices and 
voter intimidation. For example, on November 7, 2006, MALDEF 
attorneys witnessed an extreme act of voter intimidation in 
Tucson, Arizona. Vigilantes, one of whom was armed, approached 
Latino voters before they entered the 49th Precinct polling 
place in an apparent attempt to suppress the Latino vote in the 
congressional midterm elections. One man carried a camcorder, 
another held a clipboard, and a third wore a law enforcement 
emblem and a holstered gun as they approached only Latino 
voters. The vigilantes asked Latino voters pointed questions 
about their political views, wrote down Latino voters' personal 
information, and videotaped them as they went to cast their 
vote. The vigilantes' website indicated that they were 
videotaping Latino voters in order to confirm that all Latino 
voters were properly registered to vote.
    You have heard about this letter in Orange County, 
California, sent to approximately 14,000 Spanish-surname 
voters. An outrage, this letter, solely meant to intimidate 
foreign-born voters. A list was bought by one of the candidates 
and used to send out on a third-party organization's letter 
head a letter written in Spanish that appeared on the 
letterhead of an organization well known for its views on 
immigration. It was signed by a fictitious person and contained 
numerous deceptive and intimidating statements.
    First, the Orange County letter falsely advised prospective 
voters that immigrants who vote in Federal elections are 
committing a crime that can result in incarceration and 
possible deportation. This is a false and deceptive statement. 
Naturalized immigrants, including our own Governor of 
California, who are otherwise eligible to vote are free to vote 
in Federal elections without fear of penalties.
    Second, the letter stated that ``the U.S. Government is 
installing a new computerized system to verify names of all 
newly registered voters who participate in the elections... 
Organizations against emigration will be able to request 
information from this new computerized system,'' according to 
the letter. Clearly not true, but clearly intended in an 
intimidating tone using false information to undermine voter 
confidence within the targeted group of voters.
    Finally, the letter stated that ``[n]ot like in Mexico, 
here there is no benefit to voting.'' This letter, representing 
a coordinated and extensive effort to suppress the Latino vote 
in the days leading up to a congressional election, was traced 
by State election officials to a candidate running for the 
congressional seat. And, in particular, foreign-born voters new 
to our process are more susceptible to these types of letters 
because they often have a system to fall back on, a system 
different than our American democracy. They are new to our 
American democracy, and it is easier to use these type of 
letters to intimidate them. That is why they are so wrong.
    S. 453 will provide critical tools to address the types of 
voter suppression and intimidation that MALDEF has combated in 
previous elections and expect to continue to combat as the 
Latino vote grows in strength over the coming years. S. 453 
will provide administrative and judicial remedies for voters 
targeted for intentionally deceptive practices, and it will 
provide security to all voters by providing for increased 
Federal protections in the elections process.
    If S. 453 had been in place during the 2006 election cycle, 
the deceptive practices of voter intimidation described would 
have resulted in different outcomes. MALDEF notified the United 
States Department of Justice, which had senior staff monitoring 
the election in Arizona, but we are unaware of any resulting 
Federal investigation or prosecution that has resulted from our 
notice that day. If S. 453 were Federal law at the time, DOJ 
would have been charged with conducting an investigation and 
prosecuting the offending parties if they engaged in 
intentional deceptive practices.
    The Orange County voter suppression letter described also 
would have triggered Federal action. We wrote to the Attorney 
General, who initiated an investigation but instituted no 
corrective actions to remedy the receipt of the misinformation 
contained in the letter. Instead, MALDEF worked with the 
California Secretary of State to distribute corrective action 
letters to all affected voters that contained the correct voter 
eligibility information.
    MALDEF supports this legislation as a remedy against voter 
intimidation and deceptive practices that limit Americans' 
ability to freely participate in the democratic process. 
Prevention of the reprehensible practices barred under S. 453 
strengthens our democracy.
    Thank you.
    [The prepared statement of Mr. Trasvina appears as a 
submission for the record.]
    Senator Cardin. Thank you very much for your testimony.
    Mr. Briffault?

STATEMENT OF RICHARD BRIFFAULT, JOSEPH P. CHAMBERLAIN PROFESSOR 
    OF LEGISLATION, COLUMBIA LAW SCHOOL, NEW YORK, NEW YORK

    Mr. Briffault. Senator Cardin, Senator Hatch, thank you for 
the honor of inviting me here to testify today. My name is 
Richard Briffault. I am a professor of law at Columbia Law 
School, specializing in election law issues.
    Congress plainly has the authority to adopt laws 
vindicating the integrity of Federal elections and protecting 
the rights of Federal voters. Moreover, S. 453 is entirely 
consistent with the First Amendment's protection of freedom of 
speech. My comments today will focus on the First Amendment 
question.
    S. 453 is aimed solely at preventing the knowing 
dissemination of falsehoods with the intent to interfere with 
the right to vote. The Supreme Court has repeatedly held that 
the First Amendment does not protect intentionally false 
statements of fact. In the Court's words, ``there is no 
constitutional value in false statements of facts.'' Moreover, 
S. 453 promotes the compelling governmental interest in 
electoral integrity. The Supreme Court has repeatedly indicated 
that the States may restrict even constitutionally protected 
speech when protecting the right of its citizens to vote freely 
for the candidates of their choice. Congress has a compelling 
interest in protecting voters from confusion and undue 
influence and in ensuring that an individual's right to vote is 
not undermined by fraud in the election process.
    S. 453 satisfies the Supreme Court's requirement that a law 
regulating false statements be narrowly tailored to avoid 
impinging on or chilling constitutionally protected speech. S. 
453 is narrowly tailored in three ways.
    First, S. 453 is limited to the communication of falsehoods 
that the speaker knows to be false and which the speaker 
communicates in order to prevent another person from voting. 
This is actually significantly tighter than the so-called 
``actual malice'' test adopted by Supreme Court in New York 
Times v. Sullivan, which permits the prohibition of both 
knowing falsehoods and statements made with reckless disregard 
for truth or falsity. Innocent, merely negligent, or even 
reckless mistakes are not penalized under the bill.
    Second, S. 453 is limited to a very constrained set of 
false statements of fact--statements dealing with the time, 
place, or manner of voting; with eligibility to vote; and with 
explicit endorsements by persons or organizations. These 
involve simple statements of fact that do not remotely deal 
with matters of opinion, or the issues, ideas, or political 
views that make up an election campaign. Such false statements 
can serve only to confuse or mislead voters, deceiving some to 
vote against their own political preferences and leading others 
not to vote at all. To the extent that such false statements 
are aimed at lower-income groups, the less educated, or racial 
minorities, they will tend to systematically undermine the 
ability of the election to represent the views of the entire 
community.
    Third, the bill provides a tight temporal limit for its 
restrictions. The prohibitions on knowing communication of 
false information apply only during the 60 days before an 
election. As a result, S. 453 is narrowly tailored, which is 
the Supreme Court's standard, to promote the compelling 
governmental interest in electoral integrity and in the 
protection of the rights of voters.
    Approximately 18 States have adopted some laws prohibiting 
false campaign statements. Courts have generally upheld in 
principle bans on intentionally false election statements as 
constitutional, although some specific statutes have fallen. S. 
453 is actually more narrowly tailored than virtually all 
existing State false campaign statement laws and, thus, should 
have no problem in passing a constitutional challenge.
    In short, by protecting voters from false statements 
intended to deceive them or prevent them from voting, S. 453 is 
not only constitutional but actually promotes the values of 
political participation and personal autonomy that are at the 
heart of the First Amendment.
    Thank you again for inviting me to testify today.
    [The prepared statement of Mr. Briffault appears as a 
submission for the record.]
    Senator Cardin. Thank you very much for your testimony.
    Mr. Canfield?

STATEMENT OF WILLIAM B. CANFIELD, PRINCIPAL, WILLIAMS & JENSEN 
                     PLLC, WASHINGTON, D.C.

    Mr. Canfield. Good afternoon, Mr. Cardin and Senator Hatch. 
Thank you for inviting me to appear before you today. My name 
is Bill Canfield. I am a partner in the Washington, D.C., law 
firm of Williams & Jensen. You have my prepared statement, and 
I will not bother to go through it. I will make a few 
observations based on my unique experience. I think I am the 
only member of this panel and any of the other panels that 
actually practices in this area of the law. Therefore, I have a 
sort of fundamental understanding of how the courts look at 
these issues and how these issues get resolved in real-time 
setting in the head of a difficult and sometimes tendacious 
campaign.
    No one here, least of all myself, is arguing for or on 
behalf of voter intimidation or any other kinds of vile things 
that have been presented before the Committee today. What I 
urge you to do is look at the four issues that I outlined in my 
prepared remarks and focus your attention on those four issues. 
This bill is well meaning, I believe, but it is subject to some 
criticism based on its scope and the definitions that it uses.
    As a person who practices in this area of the law, I have 
to counsel my clients, which are campaigns and campaign 
committee managers and those kinds of professionals, as to the 
status of current law. It is a very difficult situation to do 
when the law that you have before you is open to various levels 
of interpretation.
    I would remind you that the Supreme Court has said in many, 
many instances that speech is the most highly protected of our 
values as American citizens, and of all kinds of speech, I 
would say political speech is probably the most singularly 
protected. And the courts have unanimously or regularly upheld 
that general principle, so I would urge the Congress in moving 
forward into an area that addresses, at least marginally or 
tangentially, the First Amendment's application to a bill such 
as this that we tread carefully and tread narrowly. Otherwise, 
the courts are going to have to, you know, interpret what you 
say and work their will.
    The other observation I would generally make is I have seen 
a tendency in the last 25 or 30 years to begin criminalizing 
various aspects of Federal election law. I think this is a 
terrible, terrible, terrible way to go. The Federal Election 
Commission exists for the sole purpose of overseeing the 
Federal Election Campaign Act. You have many agencies of the 
executive branch of Government who also have a role in this. To 
criminalize activities that have never been criminalized before 
within the electoral setting is a challenge, I think, in and of 
itself.
    The bill's provision for a private right of action by a 
person who is aggrieved by some form of intimidation also 
troubles me. I think it will lead to the opening of Pandora's 
Box. If it is easy now in the course of a campaign to file a 
spurious campaign complaint with the Federal Election 
Commission and hold a press conference and get the attention of 
the local press alleging that your opponent has engaged in some 
violation of Federal election law without any real interest in 
seeing how the FEC deals with the matter, which is always after 
the fact, think how easy it is going to be for some campaign 
manager who is aggrieved by the campaign tactics of the other 
side to get someone, either himself or some supporter, to file 
a private right of action, to go to the U.S. Attorney, to go to 
the Attorney General, to file a private right of action to try 
and suppress whatever that campaign manager does not like the 
other side doing to his campaign.
    So I just encourage you to look at the practical aspects of 
the bill's such as this that you are looking for because the 
difficulty we have as practitioners is actually implementing 
them after they have been agreed to by the Congress.
    [The prepared statement of Mr. Canfield appears as a 
submission for the record.]
    Senator Cardin. Thank you very much for your testimony.
    Mr. Kirsanow?

 STATEMENT OF PETER N. KIRSANOW, COMMISSIONER, U.S. COMMISSION 
               ON CIVIL RIGHTS, WASHINGTON, D.C.

    Mr. Kirsanow. Thank you, Mr. Chairman, Senator Hatch. I am 
Peter Kirsanow, a member of the U.S. Commission on Civil 
Rights, also a member--
    Senator Cardin. Would you turn your microphone one?
    Mr. Kirsanow. Thank you. I am a member of the U.S. 
Commission on Civil Rights and also the National Labor 
Relations Board. I am here in my personal capacity.
    The U.S. Commission on Civil Rights was established 
pursuant to the 1957 Civil Rights Act to, among other things, 
act as a national clearinghouse for matters pertaining to equal 
protection and voting rights.
    In furtherance of the clearinghouse function, the 
Commission on a regular basis conducts hearings on voter 
suppression, intimidation, and harassment. And the last such 
hearing was in October of 2006, just before the midterm 
elections.
    Based on the evidence adduced at that Commission hearing, I 
would urge the Committee in its deliberations of Senate bill 
453 to consider at least three deceptive practices not 
currently covered by the bill; that is, false registrations, 
multiple registration, and compromised absentee ballots.
    The evidence adduced shows that at least two prongs to the 
problem of deceptive practices that deal with election 
integrity: first is voter suppression, broadly defined; second 
is voter fraud.
    The empirical shows that the first prong is generally a 
function of provisional ballots and also of election 
disinformation. Sections 3(a)(2)(A)(ii) and 3(b)(1)(A)(ii) 
cover at least certain elements of the first prong, that is, 
preventing eligible voters from voting, but leave wholly 
unaddressed the second prong of affirmative voter fraud, and 
deceptive practice at least as consequential as voter 
suppression and intimidation, and possibly more so.
    For example, in the 2000 Presidential election, there were 
voluminous claims of rampant voter intimidation, harassment, 
and suppression. The Civil Rights Commission conducted a 6-
month investigation immediately after the election. The Civil 
Rights Division of the Department of Justice also conducted an 
investigation.
    Despite the widespread claims of intimidation, harassment, 
and suppression, the investigation yielded just two ostensible 
cases of perceived voter intimidation, and the Civil Rights 
Division's investigation concluded that there was no credible 
evidence of any Floridians having their votes intentionally 
denied.
    Now, in contrast, a subsequent media investigation showed 
that there were at least 2,000 ballots cast illegally in 
Florida, and since the vote margin was 537 votes, the 
fraudulent votes were sufficient to affect the outcome of the 
election.
    This is not an isolated occurrence. The evidence adduced at 
Commission hearings, particularly from Mark Hearne, who is an 
adviser to the Carter-Baker Commission on Federal Election 
Reform, shows that there are numerous instances, suggesting 
numerous instances of significant voter fraud. The allegations 
include individuals and organizations that aid and abet 
ineligible voters to vote.
    Now, there are numerous cases that have been reported of 
people paid to register those ineligible to vote and fictitious 
characters. The infamous case in Ohio during the 2004 
Presidential election campaign of a canvasser paid with crack 
cocaine to register Dick Tracy, Mary Poppins, and scores of 
other equally notable voters is fairly well known.
    Again, these are not isolated circumstances. In 2001, a 
major voter registration drive in the black community of St. 
Louis produced 3,800 new voter registration cards. When some of 
the names appeared suspicious, elections officials reviewed all 
of the cards and determined that nearly every single one was 
fraudulent. Dogs, the dead, and people who simply did not want 
to register to vote were among the new registrants.
    Now, the problem is not simply that canvassers are being 
paid to register manifestly fraudulent voters. It is also that 
voting rolls throughout the country are being padded with 
perhaps hundreds of thousands of false and fraudulent names. 
Testimony before the Senate Rules Committee by John Sample 
showed that Alaska, for example, had 503,000 people on the 
voting rolls, yet there are only 437,000 people of voting age 
in Alaska.
    The problem is magnified by those who solicit and aid 
individuals to vote in multiple jurisdictions. One hundred and 
forty thousand Floridians are registered in multiple 
jurisdictions; 60,000 voters are registered in both North 
Carolina and South Carolina; 8,000 Kentuckians are registered 
in Tennessee. The bill is silent with respect to these 
deceptive practices, and multiple registrations and fraudulent 
registrations are compounded by the problem of compromised 
absentee ballot integrity. The practice of misleadingly 
assisting individuals to cast an absentee ballot can lead to 
wholesale disenfranchisement. This is a potentially troublesome 
problem, particularly with respect to bilingual ballots.
    This is not a minor concern. The 1998 Miami mayoral 
election was actually set aside because of rampant absentee 
ballot forgeries.
    These deceptive practices have the capacity to affect the 
outcome of an election. They undermine public confidence in the 
electoral process. And the bill is silent on these. These are 
significant omissions.
    So I would urge this Committee to consider including these 
deceptive practices in the bill's prohibitions.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Kirsanow appears as a 
submission for the record.]
    Senator Cardin. Well, thank you for your testimony, and I 
thank the entire panel for their testimony here today.
    Mr. Kirsanow, let me start with you, if I might. You were 
here during the testimony of what happened in my State of 
Maryland in 2006. Does that trouble you? Does that concern you 
that there were efforts made to provide the minority community 
with deceitful information during the course of the campaign 
and that minority voters had a much more difficult time in 
casting their votes in the State of Maryland?
    Mr. Kirsanow. Absolutely, Mr. Chairman. As a member of the 
Civil Rights Commission, we address these issues on a regular 
basis. These matters are brought before us quite often, and 
they are not simply relegated to your State. They are not a 
partisan issue. They go on both sides.
    During the 2000 Presidential campaign, there were radio ads 
in my community, Cleveland, Ohio--I live in a majority black 
neighborhood--that would talk about the fact that casting a 
vote for a Republican is casting a vote for lynching, that 
casting a vote for a Republican means another church is going 
to be burned down. Those kinds of things are reprehensible, 
despicable. We deplore those things.
    My testimony is focused on the fact that this bill can be 
significantly enhanced by addressing some significant issues 
with respect to election integrity, and those deal with voter 
fraud. These are things that are not simply matters of recent 
import. They go back throughout our history where we have had 
thousands, perhaps tens of thousands of cases in which, again, 
the dead or others have been registered to vote and people 
voting in their names.
    Senator Cardin. Let me agree with you on the first point 
that you made. I find that despicable, the statements made that 
voting for a particular candidate is equivalent to the 
circumstances you said. That is why I agree completely. I think 
it was Senator Obama or Senator Schumer who said this is not a 
partisan issue. We are going to fight very hard in elections to 
get our vote out, but we should not be fighting to suppress the 
vote or mislead the vote. And that is wrong, and anything that 
we do that tries to mislead the vote in that regard, whether it 
is a Democratic candidate trying to get minority votes away 
from a Republican or a Republican from a Democrat, that is 
wrong.
    We have seen these practices now--it is not isolated. We 
have seen these practices in many States, and the practices 
appear to be growing. I do not know whether your Commission has 
investigated what happened in Maryland in 2006 or what happened 
in Virginia or what happened in California. I hope that you are 
doing that because in each of these cases it was clear that the 
intention of the individuals who were responsible for this 
material was to diminish minority voters. And that is something 
that should have no place in American politics.
    So I am just somewhat interested as to how your Commission 
is looking at this. You have indicated you have done some 
studies, and I would love--I think our Committee would welcome 
the review on the circumstances that have been brought out at 
this hearing. We had this hearing, and there has been now 
significant testimony, and I have not seen any investigations 
by your Commission in regards to those issues. So I would 
welcome your review of that.
    You do mention the 2000 election and at least 2,000 voters 
who cast votes illegally according to the Media Analysis. Is 
that the group that you--
    Mr. Kirsanow. Yes.
    Senator Cardin. Now, has your Commission or any law 
enforcement agency or any academic research borne out these 
numbers?
    Mr. Kirsanow. No law enforcement agency has done so, and 
very often it is difficult to prove the negative. But there 
have been some academic studies with respect to matters such as 
this. If you look at the--
    Senator Cardin. Could you make that available to our 
Committee?
    Mr. Kirsanow. I sure could.
    Senator Cardin. So we could see what basis--
    Mr. Kirsanow. Our civil rights--
    Senator Cardin. You made a pretty strong statement.
    Mr. Kirsanow. Yes.
    Senator Cardin. I could tell you that I heard a similar 
statement made about fraudulent voting in a California 
congressional election when I was a Member of the House, and we 
investigated that in the House committee because the election 
was contested, and it bore out that there were no demonstrated 
fraudulent votes. So I know statements are often made, but we 
like to see the facts behind those statements. So I would 
appreciate it if you could make available to us the specifics 
that would bear out those numbers.
    Mr. Kirsanow. Absolutely, Mr. Chairman. I would just offer 
that, as you know, in Florida in 2000 there was a significant 
problem with respect to purging the voter rolls of felons who 
at that time at least were barred from voting in Florida. And 
when matching the names of those felons to those who vote or at 
least checked off--who were checked off by registrars as 
voting, there was a correlative that showed that individuals 
not entitled to vote were actually voting. And this is not 
something that is unusual.
    Senator Cardin. I will just give you my own observations. I 
have been at polling places a lot in my lifetime. There are 
more eligible voters who were not able to cast votes, even 
though provisional ballots are required, than any documented 
cases that I know of, of people who were ineligible to vote who 
cast their votes.
    So I am all for making sure that people who are eligible to 
vote are only the ones that vote. But I worry about what 
happened in Prince George's County, Maryland, in which the 
county executive I think pretty clearly pointed out that 
hundreds, if not thousands, of voters in that one county were 
denied an opportunity to vote because of the practices in this 
past election. And I would hope that your Commission would take 
a look at that type of activity, because I think it has a much 
stronger impact on the system than the other issues.
    I am going to come back on a second round, but let me 
recognize Senator Hatch.
    Senator Hatch. Well, thank you, Mr. Chairman.
    Let me just ask the panel this question, and any or all of 
you can answer it, as far as I am concerned. This legislation 
proposes to create a new crime for communicating false 
information that has the intent to prevent another person from 
voting in an election. What about communicating false 
information that encourages another person to illegally vote in 
an election? Should that be part of this bill? If I encouraged, 
say, an illegal alien to vote in an upcoming election, knowing 
that this type of activity is illegal, shouldn't that also be a 
crime under this legislation? Now, to me it would not appear to 
be so under this bill.
    I would also like to ask every member of the panel to say 
whether they would support the inclusion of this type of 
illegal activity. We can start over there with you, Mr. 
Shelton.
    Mr. Shelton. Senator Hatch, good afternoon, sir. Let me 
first say that it is already a crime for one who is not a U.S. 
citizen to vote in an election, and certainly if one conspires 
with someone to commit a crime, they are also committing a 
crime. I think this particular piece of legislation needs to 
address those concerns.
    But may I also say on a different note that was raised 
earlier, the NAACP would love the opportunity to submit 
transcripts from hearings that were held in Florida after the 
2000 election that showed a number of things, including every 
African-American male going to certain polling sites actually 
being intimidated away from the polls by being asked if indeed 
they had a felony on their records. That was the outcome of 
many of the problems that were raised by my colleague at the 
other end of the table.
    We would love to provide that kind of information, and 
certainly we would also love to provide information about the 
outcome of the St. Louis election as well in which only on the 
north side of St. Louis, the predominantly African-American 
community, where polling sites opened late and were not allowed 
to stay open late until lawsuits were filed by the NAACP to do 
such.
    So in answer to your first question, I do not think this 
legislation needs to cover an issue that is already covered by 
law, and certainly we look forward to seeing that particular 
law being further enforced. As a matter of fact, as we talked 
about the issue of the crimes that were committed, it is also 
interesting to the NAACP, and I think to others in this room, 
that the Justice Department actually convicted no one of crimes 
of fraud in the election process.
    Senator Hatch. Do you all agree that this is presently 
covered?
    Mr. Trasvina. Senator, I believe that over the years you 
have closed those loopholes. You have closed those loopholes 
about if there is any perception of unauthorized immigrants 
being able to be persuaded to vote. In the 1996 Act on 
immigration, that is already taken care of. I would be 
surprised if that continued to be a problem to the extent it 
even was a problem before. And the Chairman alluded to the 46th 
Congressional District investigations back in the mid-1990s.
    I think Commissioner Kirsanow talks about the problem 
particularly with bilingual voting, and you recall from the 
1992 hearings on the Voting Rights Act extension, and even back 
to 1982, we always hear about bilingual ballots or causing 
undocumented immigrants to vote. And every time somebody comes 
up with a list, they go back and registrars look at the list, 
and they find the problem was not with the voters. The problem 
was with the incomplete and not up-to-date INS records that do 
not show the naturalization date of the person so that the 
person was properly registered, properly voted, and that there 
have not been cases of unauthorized immigrants voting in 
elections. We made it a deportable offense, made it a bar to 
naturalization. Those are the types of things that are already 
in place that mean that this law does not need to be amended 
for that purpose.
    Mr. Briffault. It was my impression that at least since the 
motor-voter law, the National Voter Registration Act of 1993, 
that false voting and false registration are already penalized, 
and I would imagine that conspiracy, which is the situation you 
are describing of somebody encouraging a false voting or false 
registration, would fall within the general penalization of 
false registration and false voting. So I suspect that the 
situation you are describing already violates Federal law.
    Mr. Canfield. I would just like to pick up on something 
that Mr. Shelton said a minute ago about the voters in Florida 
who were being challenged at the polling station and asked 
whether they were felons or not. You know, I do not think 
anybody can countenance that kind of activity. But at the same 
time, I think that there has to be some sort of recognition 
given to the fact that Federal and State law allows certain 
people to vote and bars other people from voting.
    One of the reasons you might be barred from voting in a 
particular State is that you have a felony conviction on your 
record. We do not want to go so far to the extreme that all 
past convictions for felonies are no longer subject or could be 
challenged when a person goes to a voting place. I do not think 
you can single out people in a particular precinct based on 
race or ethnicity, obviously, but it is still a legitimate 
question in a larger context to make sure that felons are not 
voting.
    Mr. Kirsanow. Senator Hatch, I said in my remarks that 
there are two prongs to the problem of deceptive voting 
practices. This bill addresses one of the prongs, and that is, 
preventing the eligible voters--or trying to prevent eligible 
voters from voting. The other prong is getting ineligible 
voters to vote, and there are a number of mechanisms by which 
this happens.
    There is an example, for example, that I have in my written 
testimony of a non-citizen from Barbados who is told that, 
well, if you are in the United States for 7 years, you can 
vote. So she registered. She did not vote, but was later told 
by election officials that somebody had voted in her name.
    Now, it is difficult to know how frequently that happens. 
It usually only happens when someone who is registered says, 
hey, wait a minute, I did not vote; or someone who is not 
registered finds out--this would hardly ever happen--finds out 
that somebody voted in their name or their name was placed on a 
roll illegitimately.
    So there are these mechanisms that occur, and some of these 
are addressed in State statutes, some of it you can look at--as 
Mr. Trasvina indicated, you look would at other statutes that 
are not discrete to this particular bill. But I think the 
intent of this particular bill was to place in one discrete 
bill the issue of deceptive practices. In that regard, the bill 
has certain omissions that I think inclusion of which would 
strengthen the bill.
    Senator Hatch. Thank you all for that.
    Mr. Canfield, your testimony mentions the problems that 
could be encountered under the legislation by providing 
authority to Federal agents to make, you know, in the days 
leading up to the election, instantaneous judgments as to who 
and what types of voter campaign deceptive practices should be 
brought before a grand jury.
    Now, do you worry that this type of grand jury activity 
could presumably negatively affect the very election it is 
trying to protect?
    Mr. Canfield. Well, of course I do, Senator, because, you 
know, the existence of a grand jury's meeting on election law 
problems are not very closely held in this country. It soon 
becomes evident to the press and other people that a grand jury 
is meeting.
    The problem I see is that giving a role, as the legislation 
purports to do, to officers of the Federal Government to draw 
conclusions or make observations in the immediate days before 
an election sends, I think, a bad signal because it empowers 
agents of the Federal Government to draw distinctions in the 
context of an election which in theory should be separate and 
apart from the Federal Government's role at all, I would say. 
And to empower Federal agents to have some sort of role in 
making determinations as to whether certain publications or 
certain announcements are fraudulent or intended to suppress 
the vote tends, I think, in the abstract to give a role to the 
Federal Government that I do not think is appropriate.
    Senator Hatch. Well, another problem with the legislation, 
at least as I view it in your opinion, Mr. Canfield, is the 
definition of ``deceptive practices.'' Given how hard it is for 
people to define what is considered deceptive, I worry about 
these subjective views. Could they lead to a great deal of 
confusion and problems with political campaigns from both 
political parties? And how would you address the definitions 
that are utilized in this bill?
    Mr. Canfield. I pointed out in my testimony that I thought 
that was a problematic area as well. You know, I represented 
the Senate Rules Committee in the contested election in 
Louisiana in 1996 when Mary Landrieu was first elected to the 
Senate. And one of the accusations by her opponent, of course, 
was that there were all kinds of shenanigans going on in 
Louisiana before and during election day. And I remember 
turning to my Democratic colleague and dear, dear friend, Bob 
Bauer, who is at Perkins Coie. Bob said to me, ``Well, you 
know, this probably does not matter and does not amount to 
much.'' And I said to him, ``Bob, this is Louisiana. Whether we 
like it or not, we are going to have to look into this.''
    There are some areas of the country that are prone to 
problems on election day. There are other parts of the country 
which have never had a history of election day problems. So to 
create a national standard is going to be, I think, somewhat 
difficult to enforce across the country. But that is just my 
experience.
    Senator Hatch. Well, you highlight a portion of the bill 
that would provide a private right of action for individuals 
who believe that they themselves were subject of some loosely 
drafted--or loosely defined, I guess, election deceptive 
practice. Now, given that the Civil Rights Division, the U.S. 
Attorney's Office, and the local law enforcement are available 
for complaints from citizens, could this new private right of 
action create, you know, an innumerable number, let's say, of 
Federal cases based upon the whims of individuals?
    Mr. Canfield. If I had to single out one part of the bill 
that ought to be really, really closely examined, I think it is 
the private right to action. I understand the intent of the 
authors, and I think the intent is not a bad one. But I think 
the unintended consequence of creating a private right of 
action will be to cause lawyers to have even more roles in the 
elections than they currently do. I think every Federal 
candidate is going to have to have one or more lawyers with him 
or her at almost all occasions. And I think that the campaign 
managers are going to understand that one of the great 
attributes that they have to take a shot at their opponent is 
to file a private cause of action against some agent or friend 
of their opponent for publishing a scurrilous document like 
this, or whatever, and having the press conference announcing 
the fact that the private right of action is being taken.
    I think it is just the law of unintended consequences, and 
from my experience in the Federal Election Campaign Act realm 
for 30 years, it is by definition the law of unintended 
consequences.
    Senator Hatch. My time is up, Mr. Chairman.
    Senator Cardin. Thank you very much.
    Mr. Briffault, let me bring you into this discussion, 
because I was impressed by your testimony as to how this bill 
has been drafted, particularly in light--I was not aware that 
there were 18 States that have passed laws in this area that, 
according to your testimony, this law, the Federal bill that is 
being suggested is one of the more tightly drawn and focused of 
the bills that are out there.
    If I understand the Obama bill, it only involves 
communications within 60 days of an election. We heard the 
concern of grand juries being out there. My understanding is it 
takes a little bit of time for those types of issues. I think 
the real purpose of this bill is to prevent activities, not to 
prosecute, and that prosecution would take more than 60 days 
under the most expedited process, so that the likelihood of 
these matters reaching the courts would be well after the 
elections themselves. That is not the main purpose of the bill. 
The purpose of the bill is to put people on record as to what 
we are trying to achieve.
    So let me try to get your view as to how this is drafted 
relative to the other bills that you have seen around the 
Nation and whether we are on safe ground in the way that we 
have dealt with it.
    Mr. Briffault. Sure. Thank you, Senator. I think it is 
considerably tighter in two ways. One is in the requirement of 
an intentional falsehood intended to affect an election. Many 
of the State laws are drafted somewhat more broadly and pick up 
falsehoods or negligent or reckless falsehoods and do not 
always have the specific addition of an intent to influence an 
election. So to begin with, it is really more tightly focused 
on intentional falsehood.
    My second point relates to Mr. Canfield's reference a few 
minutes ago about the breadth of the idea of deceptive. 
Although the bill is titled ``deceptive,'' it actually only 
targets three very specifically defined types of actions, and 
that I think is also unusual. Instead of a general prohibition 
of false, deceptive, or misleading statements, which is the 
kind of language you see in some of the State laws, it targets 
these three specific types of factual misstatements: the time, 
place, and manner of the election. Is the election going to be 
on Tuesday or on Wednesday? Is it on November 2nd or November 
3rd, which is an area where it is easy to get the facts right. 
If you can prove that such a statement is intentionally--it is 
also easy to make it an error, so you can prove that it is 
intentionally wrong--the only effect of that kind of 
intentional falsehood is to confuse people. False statement 
concerning eligibility to vote, the kinds that were mentioned 
earlier, you cannot vote if you have not paid your parking 
tickets, which, again, if that is knowingly false and that can 
be proven on the part of the speaker, again, the only effect of 
that is to induce people who have the right to vote not to 
vote. As for false statements concerning endorsements, the only 
effect of that is to persuade people to vote against their 
preferences, to mislead the voters.
    None of this really addresses statements about issues or 
hyperbole, nasty comments, exaggerations of a candidate's 
record or anything like that, which would be obviously far more 
problematic and probably un constitutional to try and regulate 
statements like that.
    Senator Cardin. I thank you.
    Mr. Shelton and Mr. Trasvina, let me try to get your 
response to the need for Federal legislation. One of the 
reasons that this bill has been--we are trying to move it is 
the view from Justice that they do not have the authority 
currently to go after these practices. Senator Schumer 
contacted the Justice Department, as he testified, after the 
2006 elections, and the Attorney General responded and even 
before our Committee responded that he did not believe that he 
had the legal authority to look into these types of issues 
because there is no Federal law that makes these practices 
illegal.
    Now, there are some State laws, I am finding out, so I 
would just like to find out from you how important you believe 
it is to have Federal law enforcement in order to try to combat 
these types of practices.
    Mr. Shelton. Why don't I begin by saying that the most 
important provisions in this bill from the NAACP's standpoint 
is the preventative provisions; that is, indeed what the bill 
does is engage the Federal Government to utilize, for instance, 
its CRS division to be able to provide the correct information 
to the local constituencies so that they can actually know when 
the elections are being held and they will not lose the 
opportunity to cast that vote. They will not indeed be 
disenfranchised.
    Indeed, that is an extremely important provision in this 
bill that will help make sure that after the fact, too often as 
we see when there is fraud in an election, the votes are lost, 
the decisions are made, and, quite frankly, the candidate that 
a majority of those living in that particular precinct, State, 
or otherwise is not the person that wins the election.
    So, indeed, engaging the Federal Government, giving the 
Federal Government the authority to actually utilize the local 
media, to utilize other entities to be able to get the 
information out so that people indeed can cast that vote in due 
time.
    Mr. Trasvina. And I would just add that having the Federal 
Government involved in this gives it the outside independence 
that is particularly important on these issues, and with 
candidates who are often involved in local parties, have it one 
step removed from the State. The Federal Government is the 
appropriate place for this authority to be rested.
    Senator Cardin. Historically, of course, it has been the 
Federal actions that have brought about the greatest 
advancements as far as removing barriers.
    Senator Hatch?
    Senator Hatch. Let me just ask the panel--I have been 
sitting here thinking. In the 2000 Presidential elections, news 
organizations erroneously announced that the polls in Florida 
had closed and that Gore had won at that particular point. 
Couldn't this proposed legislation be used to prosecute members 
of these news organizations? Or could it? I would at least like 
to have your viewpoint on it. We will start with you, Mr. 
Shelton.
    Mr. Shelton. If it can be proven that it was intentional 
to--
    Senator Hatch. You think that is what the pivotal question 
would be. Do you agree, Mr. Trasvina?
    Mr. Trasvina. I do not believe that this legislation would 
cover that type of situation.
    Senator Hatch. OK. Mr. Briffault?
    Mr. Briffault. If the reporter knew that the polls were 
open and said they were closed and did that in order to 
persuade people not to vote when they were still eligible to 
vote, then I could it might fall within this. I would have to 
think about whether there is a broader press exemption. But I 
think in a situation of a reporter abusing a reporter's 
position to intentionally disseminate false information with 
the intention of getting people not to vote, that could fall 
within this.
    Senator Hatch. Well, we have never seen that around here, 
of course.
    Mr. Canfield?
    Mr. Canfield. Senator Hatch, I would just say that your 
question, I think, points out one shortcoming, and that is, 
there are many ways of getting out false and disseminating 
false information in a campaign setting that can never be 
attributed to anybody in the campaign itself. More often than 
not, in my experience, the problems that occur at the local 
grassroots precinct level are caused by people acting at that 
level not in connection with some higher authority at the State 
party or the Federal national party committees or that kind of 
thing.
    State and Federal elections tend to be very result 
oriented, and if you are a local campaign operative or 
supporter of a candidate, you may not have a position in the 
campaign, but if you are sufficiently motivated to support that 
candidate, you will in some instances do whatever you think is 
necessary to achieve that end.
    That is what strikes me about so much of this anecdotal 
information that we see here. With the exception of the one 
that was allegedly attributed to the gubernatorial and 
senatorial Republican candidates in Maryland, the rest of this 
looks like it is done by somebody in their basement. It does 
not look very professional. It does not look like a campaign 
would put it out.
    So what I think is you have in most instances where stuff 
like this comes across the transom, you have people who are 
operating independently of anybody, whose intentions are to 
help or hurt one party, but are not acting in concert or as an 
agent of that party.
    Senator Hatch. OK. Mr. Kirsanow?
    Mr. Kirsanow. Senator, Section 3(b)(1)(A)(ii) talks about 
intent and the information that is conveyed in terms of time 
and place of the election. I agree with Professor Briffault 
that if there was some showing of intent on the part of the 
media agencies, it could possibly fall within that.
    In my day job on the National Labor Relations Board, we 
conduct elections. Now, electing Senators may not be as 
important as electing a union, but, nonetheless, we have got 
all kinds of manners of structures to protect that right to 
vote. And one of the things we are concerned about is having a 
buffer during the election campaign that recognizes that even 
if, you know, it may be unlawful, we have got to be very 
careful to make sure that that buffer does not somehow intrude 
upon legitimate speech. You have got to be very careful in 
taking a scalpel in how you carve out what is prohibited 
speech.
    Now, I do not think that there is--I am not a First 
Amendment scholar, so I will not address the First Amendment 
concerns at all. And I think these kinds of acts are despicable 
and need to be addressed. But, nonetheless, I think it would 
probably be a fairly high hurdle to show that media is 
intentionally trying to defraud or mislead voters. In 
Tallahassee and the Panhandle of Florida, there were 
allegations that came to our attention that there were hundreds 
of people who were in line ready to vote, and then there was a 
report that, in fact, you know, one of the candidates had, in 
fact, won. And a lot of people went home, and it turned out to 
be that that was false. Then there were reports that certain 
polling stations were closed and people go home. Mr. Shelton 
talked about that in St. Louis, and that occurs in a lot of 
areas.
    The question is: Can you show intent? The question is: How 
broadly is intent defined?
    Senator Hatch. Thank you.
    Professor Briffault, we are honored to have all of you 
here, and I have enjoyed your testimony, but in his testimony, 
Mr. Johnson testified or cited several examples of ``false and 
deceptive'' practices that he believes should be prohibited and 
criminalized by this legislation.
    Now, one of the examples, as I understand it, that Mr. 
Johnson provided was a political sign saying, ``We are not 
slaves to the Democrats.'' Do you agree with Mr. Johnson's 
assessment that these signs were ``false and deceptive'' and 
were a ``deliberate effort to confuse, to mislead, and to 
suppress African-American votes''? And, furthermore, would 
these signs fall into the purview of this legislation? And the 
last question would be: Where do you draw the line?
    Mr. Briffault. Those statements would not fall within this 
legislation. They do not deal with any of the three specific 
things this legislation addresses--time, place, and manner, 
qualifications to vote, or false statement of endorsements.
    More generally, no, I would not consider them to be the 
kinds of ``false statements'' that you could regulate. They are 
hyperbole. They are the kinds of strong statements that are, 
you know, the heart of politics. I mean, like it or not, these 
things are the kinds of strong, exaggerated, often negative 
statements, the harsh rhetoric that have been part of American 
politics since the founding. And these kinds of statements 
would not be picked up by this bill. They should be challenged 
by people on the other side. They should be decried for the 
kinds of images that they use, but the response to these kinds 
of statements is more counter statements. I do not think they--
I believe they are not regulated by this bill. I do not believe 
they could be regulated by any bill constitutionally, and I 
think that is the right result.
    I think the kind of line that has been drawn is the line 
that the Supreme Court has drawn, which is about statements of 
fact and things which will be perceived as statements of fact. 
I think in a situation like that, no one would believe that 
anyone was being treated as a slave in a literal sense. It is 
being used in a metaphoric sense, and I think that is the way 
any person seeing the billboard would react to it.
    Senator Hatch. Mr. Canfield, do you agree with that?
    Mr. Canfield. Mr. Chairman, I would give you an example of 
the kind of problem that is addressed in the legislation, the 
false endorsement right up before the general election. In my 
experience, there is a mechanism currently in Federal law to 
deal with a situation like that, and I give you as an example 
the campaign of Congresswoman Ellen Tauscher a few years ago in 
California, I would say now about 8 or 10 years ago. I think it 
was her first term. She ran against a Republican, and during 
the heart of the campaign, within probably a month of the 
general election, a flier went out to all of the registered 
Democrats in her district. It was allegedly signed by George 
Miller of California, I think the dean of the California House 
delegation--obviously, it was not his signature, but it was a 
facsimile of his signature--saying that Ellen Tauscher was 
wrong on several fronts. She had voted with the Bush 
administration on certain legislation and was not supported by 
rank-and-file Democrats.
    It caused a big stir in that district. It was never proven 
where the source of the flier came from. It was never proven 
that it came from her Republican opponent. But a Federal grand 
jury in Washington met on that allegation. The Federal Election 
Commission got a whole of it first because there was a 
complaint by the Tauscher campaign against her opponent. After 
the Federal Election Commission was involved, there was a 
Federal grand jury seated in Washington, and I had a client who 
testified before that grand jury.
    So to say that the Federal Government or the Justice 
Department does not regularly oversee or prosecute in this area 
is not correct. They did in that instance. They got a criminal 
conviction, the Justice Department, in that instance.
    Senator Hatch. Thank you, Mr. Chairman.
    Senator Cardin. Mr. Canfield, I should have taken you to 
the Justice Department when I met with them to see whether they 
would pursue the Maryland circumstances, because they told me 
they had no authority to do it. We had some discussions about 
that.
    I would just point, again, I agree with Senator Hatch. I 
thank all of you for your testimony. I found this panel to be 
extremely helpful. We know we are dealing with tough subjects. 
Whenever you are dealing with First Amendment issues, you have 
a difficult issue to deal with, and election laws make it even 
more complicated. I do not mean to minimize that, but I would 
just make an observation. I was not on this Committee when the 
Voting Rights Act was passed in the 1960's, but I imagine some 
of the points that were made that these are just local issues 
and they are isolated and they are not really part of a pattern 
of a political party were made back then. And the Congress did 
right when they passed the Voting Rights Act and made it clear 
that we would not tolerate as a Nation practices that try to 
infringe upon the rights of individuals to vote.
    Mr. Canfield, I would just point out that I think this is 
somewhat evolutionary. Yes, the fliers that I first saw, I had 
no idea who put them out. They were hard to figure out who was 
identifying these fliers. But then we saw in California and 
Virginia and Maryland organized efforts. These were not 
individual independent operators. These were sophisticated 
operations using targeted lists, using robo-calls, and in 
Maryland using literature under the authority of the Governor 
and candidate for U.S. Senate.
    So this was not something that was without a great deal of 
thought, and unless we clarify this situation, I expect that 
you will see bolder actions and the acceptability that it is 
fair game to win an election to try to suppress vote.
    Now, the fact that they do it the night before the election 
tells you just how proud they are of the tactics they are 
using, and I think you will see a lot of that continue to 
happen.
    This bill is very narrowly drawn. When Mr. Johnson was 
testifying about the slavery posters, I pointed out that that 
would not be affected by this bill. As despicable as those 
ballots were, this bill is not aimed at that, nor should it be 
aimed at that. There is a lot of information put out in 
campaigns I have been involved with against me that were 
absolutely wrong. But that is part of the political process, 
and people put spins on different things, and I have got to be 
prepared to respond to it. And I am prepared to respond to it, 
even if it comes at the 11th hour.
    But what I should not have been to be dealing with and no 
candidate should be subjected to is tactics used to suppress 
minority vote. And this bill, I think, is very narrowly drawn. 
I would argue that perhaps we should consider broadening it, 
but I think we have the right support group now, and I hope 
that we can move it the way it has been negotiated.
    But I would just urge all of you to take a look at this, 
look at what we are trying to achieve and send a clear message 
of what we think is right and wrong in the election process, 
and to look at the purpose of this legislation. I am pleased 
that the House committee has already acted on it. I was talking 
to Congressman Hoyer earlier, and I am hopeful that the House 
will act on this bill. And I hope that our Committee and the 
Senate will act on this legislation. I think it is an important 
issue. I do not know of anything that is more important than 
making sure that our elections are fair, open, and available to 
all of our eligible voters and we try to get the highest 
possible participation. That is not a partisan issue and one in 
which Democrats and Republicans need to come together on and 
the Federal Government needs to play a critical role in that.
    The record will be held open for 1 week for written 
testimony from other groups that wish to submit it. Again, I 
thank all of you for participating, and the Committee will 
stand in recess.
    [Whereupon, at 4 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T0581.001
    
    [GRAPHIC] [TIFF OMITTED] T0581.002
    
    [GRAPHIC] [TIFF OMITTED] T0581.003
    
    [GRAPHIC] [TIFF OMITTED] T0581.004
    
    [GRAPHIC] [TIFF OMITTED] T0581.005
    
    [GRAPHIC] [TIFF OMITTED] T0581.006
    
    [GRAPHIC] [TIFF OMITTED] T0581.007
    
    [GRAPHIC] [TIFF OMITTED] T0581.008
    
    [GRAPHIC] [TIFF OMITTED] T0581.009
    
    [GRAPHIC] [TIFF OMITTED] T0581.010
    
    [GRAPHIC] [TIFF OMITTED] T0581.011
    
    [GRAPHIC] [TIFF OMITTED] T0581.012
    
    [GRAPHIC] [TIFF OMITTED] T0581.013
    
    [GRAPHIC] [TIFF OMITTED] T0581.014
    
    [GRAPHIC] [TIFF OMITTED] T0581.015
    
    [GRAPHIC] [TIFF OMITTED] T0581.016
    
    [GRAPHIC] [TIFF OMITTED] T0581.017
    
    [GRAPHIC] [TIFF OMITTED] T0581.018
    
    [GRAPHIC] [TIFF OMITTED] T0581.019
    
    [GRAPHIC] [TIFF OMITTED] T0581.020
    
    [GRAPHIC] [TIFF OMITTED] T0581.021
    
    [GRAPHIC] [TIFF OMITTED] T0581.022
    
    [GRAPHIC] [TIFF OMITTED] T0581.023
    
    [GRAPHIC] [TIFF OMITTED] T0581.024
    
    [GRAPHIC] [TIFF OMITTED] T0581.025
    
    [GRAPHIC] [TIFF OMITTED] T0581.026
    
    [GRAPHIC] [TIFF OMITTED] T0581.027
    
    [GRAPHIC] [TIFF OMITTED] T0581.028
    
    [GRAPHIC] [TIFF OMITTED] T0581.029
    
    [GRAPHIC] [TIFF OMITTED] T0581.030
    
    [GRAPHIC] [TIFF OMITTED] T0581.031
    
    [GRAPHIC] [TIFF OMITTED] T0581.032
    
    [GRAPHIC] [TIFF OMITTED] T0581.033
    
    [GRAPHIC] [TIFF OMITTED] T0581.034
    
    [GRAPHIC] [TIFF OMITTED] T0581.035
    
    [GRAPHIC] [TIFF OMITTED] T0581.036
    
    [GRAPHIC] [TIFF OMITTED] T0581.037
    
    [GRAPHIC] [TIFF OMITTED] T0581.038
    
    [GRAPHIC] [TIFF OMITTED] T0581.039
    
    [GRAPHIC] [TIFF OMITTED] T0581.040
    
    [GRAPHIC] [TIFF OMITTED] T0581.041
    
    [GRAPHIC] [TIFF OMITTED] T0581.042
    
    [GRAPHIC] [TIFF OMITTED] T0581.043
    
    [GRAPHIC] [TIFF OMITTED] T0581.044
    
    [GRAPHIC] [TIFF OMITTED] T0581.045
    
    [GRAPHIC] [TIFF OMITTED] T0581.046
    
    [GRAPHIC] [TIFF OMITTED] T0581.047
    
    [GRAPHIC] [TIFF OMITTED] T0581.048
    
    [GRAPHIC] [TIFF OMITTED] T0581.049
    
    [GRAPHIC] [TIFF OMITTED] T0581.050
    
    [GRAPHIC] [TIFF OMITTED] T0581.051
    
    [GRAPHIC] [TIFF OMITTED] T0581.052
    
    [GRAPHIC] [TIFF OMITTED] T0581.053
    
    [GRAPHIC] [TIFF OMITTED] T0581.054
    
    [GRAPHIC] [TIFF OMITTED] T0581.055
    
    [GRAPHIC] [TIFF OMITTED] T0581.056
    
    [GRAPHIC] [TIFF OMITTED] T0581.057
    
    [GRAPHIC] [TIFF OMITTED] T0581.058
    
    [GRAPHIC] [TIFF OMITTED] T0581.059
    
    [GRAPHIC] [TIFF OMITTED] T0581.060
    
    [GRAPHIC] [TIFF OMITTED] T0581.061
    
    [GRAPHIC] [TIFF OMITTED] T0581.062
    
    [GRAPHIC] [TIFF OMITTED] T0581.063
    
    [GRAPHIC] [TIFF OMITTED] T0581.064
    
    [GRAPHIC] [TIFF OMITTED] T0581.065
    
    [GRAPHIC] [TIFF OMITTED] T0581.066
    
    [GRAPHIC] [TIFF OMITTED] T0581.067
    
    [GRAPHIC] [TIFF OMITTED] T0581.068
    
    [GRAPHIC] [TIFF OMITTED] T0581.069
    
    [GRAPHIC] [TIFF OMITTED] T0581.070
    
    [GRAPHIC] [TIFF OMITTED] T0581.071
    
    [GRAPHIC] [TIFF OMITTED] T0581.072
    
    [GRAPHIC] [TIFF OMITTED] T0581.073
    
    [GRAPHIC] [TIFF OMITTED] T0581.074
    
    [GRAPHIC] [TIFF OMITTED] T0581.075
    
    [GRAPHIC] [TIFF OMITTED] T0581.076
    
    [GRAPHIC] [TIFF OMITTED] T0581.077
    
    [GRAPHIC] [TIFF OMITTED] T0581.078
    
    [GRAPHIC] [TIFF OMITTED] T0581.079
    
    [GRAPHIC] [TIFF OMITTED] T0581.080
    
    [GRAPHIC] [TIFF OMITTED] T0581.081
    
    [GRAPHIC] [TIFF OMITTED] T0581.082
    
    [GRAPHIC] [TIFF OMITTED] T0581.083
    
    [GRAPHIC] [TIFF OMITTED] T0581.084
    
    [GRAPHIC] [TIFF OMITTED] T0581.085
    
    [GRAPHIC] [TIFF OMITTED] T0581.086
    
    [GRAPHIC] [TIFF OMITTED] T0581.087
    
    [GRAPHIC] [TIFF OMITTED] T0581.088
    
    [GRAPHIC] [TIFF OMITTED] T0581.089
    
    [GRAPHIC] [TIFF OMITTED] T0581.090
    
    [GRAPHIC] [TIFF OMITTED] T0581.091
    
    [GRAPHIC] [TIFF OMITTED] T0581.092
    
    [GRAPHIC] [TIFF OMITTED] T0581.093
    
    [GRAPHIC] [TIFF OMITTED] T0581.094
    
    [GRAPHIC] [TIFF OMITTED] T0581.095
    
    [GRAPHIC] [TIFF OMITTED] T0581.096
    
    [GRAPHIC] [TIFF OMITTED] T0581.097
    
    [GRAPHIC] [TIFF OMITTED] T0581.098
    
    [GRAPHIC] [TIFF OMITTED] T0581.099
    
    [GRAPHIC] [TIFF OMITTED] T0581.100
    
    [GRAPHIC] [TIFF OMITTED] T0581.101
    
    [GRAPHIC] [TIFF OMITTED] T0581.102
    
    [GRAPHIC] [TIFF OMITTED] T0581.103
    
    [GRAPHIC] [TIFF OMITTED] T0581.104
    
    [GRAPHIC] [TIFF OMITTED] T0581.105
    
    [GRAPHIC] [TIFF OMITTED] T0581.106
    
    [GRAPHIC] [TIFF OMITTED] T0581.107
    
    [GRAPHIC] [TIFF OMITTED] T0581.108
    
    [GRAPHIC] [TIFF OMITTED] T0581.109
    
    [GRAPHIC] [TIFF OMITTED] T0581.110
    
    [GRAPHIC] [TIFF OMITTED] T0581.111
    
    [GRAPHIC] [TIFF OMITTED] T0581.112
    
    [GRAPHIC] [TIFF OMITTED] T0581.113
    
    [GRAPHIC] [TIFF OMITTED] T0581.114
    
    [GRAPHIC] [TIFF OMITTED] T0581.115
    
    [GRAPHIC] [TIFF OMITTED] T0581.116
    
    [GRAPHIC] [TIFF OMITTED] T0581.117
    
    [GRAPHIC] [TIFF OMITTED] T0581.118
    
    [GRAPHIC] [TIFF OMITTED] T0581.119
    
    [GRAPHIC] [TIFF OMITTED] T0581.120
    
    [GRAPHIC] [TIFF OMITTED] T0581.121
    
    [GRAPHIC] [TIFF OMITTED] T0581.122
    
    [GRAPHIC] [TIFF OMITTED] T0581.123
    
    [GRAPHIC] [TIFF OMITTED] T0581.124
    
    [GRAPHIC] [TIFF OMITTED] T0581.125
    
    [GRAPHIC] [TIFF OMITTED] T0581.126
    
    [GRAPHIC] [TIFF OMITTED] T0581.127
    
    [GRAPHIC] [TIFF OMITTED] T0581.128
    
    [GRAPHIC] [TIFF OMITTED] T0581.129
    
    [GRAPHIC] [TIFF OMITTED] T0581.130
    
    [GRAPHIC] [TIFF OMITTED] T0581.131
    
    [GRAPHIC] [TIFF OMITTED] T0581.132
    
    [GRAPHIC] [TIFF OMITTED] T0581.133
    
    [GRAPHIC] [TIFF OMITTED] T0581.134
    
    [GRAPHIC] [TIFF OMITTED] T0581.135
    
    [GRAPHIC] [TIFF OMITTED] T0581.136
    
    [GRAPHIC] [TIFF OMITTED] T0581.137
    
    [GRAPHIC] [TIFF OMITTED] T0581.138
    
    [GRAPHIC] [TIFF OMITTED] T0581.139
    
    [GRAPHIC] [TIFF OMITTED] T0581.140
    
    [GRAPHIC] [TIFF OMITTED] T0581.141
    
    [GRAPHIC] [TIFF OMITTED] T0581.142
    
    [GRAPHIC] [TIFF OMITTED] T0581.143
    
    [GRAPHIC] [TIFF OMITTED] T0581.144
    
    [GRAPHIC] [TIFF OMITTED] T0581.145
    
    [GRAPHIC] [TIFF OMITTED] T0581.146
    
    [GRAPHIC] [TIFF OMITTED] T0581.147
    
    [GRAPHIC] [TIFF OMITTED] T0581.148
    
    [GRAPHIC] [TIFF OMITTED] T0581.149
    
    [GRAPHIC] [TIFF OMITTED] T0581.150
    
    [GRAPHIC] [TIFF OMITTED] T0581.151
    
    [GRAPHIC] [TIFF OMITTED] T0581.152
    
    [GRAPHIC] [TIFF OMITTED] T0581.153
    
    [GRAPHIC] [TIFF OMITTED] T0581.154
    
    [GRAPHIC] [TIFF OMITTED] T0581.155
    
    [GRAPHIC] [TIFF OMITTED] T0581.156
    
    [GRAPHIC] [TIFF OMITTED] T0581.157
    
    [GRAPHIC] [TIFF OMITTED] T0581.158
    
    [GRAPHIC] [TIFF OMITTED] T0581.159
    
    [GRAPHIC] [TIFF OMITTED] T0581.160
    
    [GRAPHIC] [TIFF OMITTED] T0581.161
    
    [GRAPHIC] [TIFF OMITTED] T0581.162
    
    [GRAPHIC] [TIFF OMITTED] T0581.163
    
    [GRAPHIC] [TIFF OMITTED] T0581.164
    
    [GRAPHIC] [TIFF OMITTED] T0581.165
    
    [GRAPHIC] [TIFF OMITTED] T0581.166
    
    [GRAPHIC] [TIFF OMITTED] T0581.167
    
    [GRAPHIC] [TIFF OMITTED] T0581.168
    
    [GRAPHIC] [TIFF OMITTED] T0581.169
    
    [GRAPHIC] [TIFF OMITTED] T0581.170
    
    [GRAPHIC] [TIFF OMITTED] T0581.171
    
    [GRAPHIC] [TIFF OMITTED] T0581.172
    
    [GRAPHIC] [TIFF OMITTED] T0581.173
    
    [GRAPHIC] [TIFF OMITTED] T0581.174
    
    [GRAPHIC] [TIFF OMITTED] T0581.175
    
    [GRAPHIC] [TIFF OMITTED] T0581.176
    
    [GRAPHIC] [TIFF OMITTED] T0581.177
    
    [GRAPHIC] [TIFF OMITTED] T0581.178
    
    [GRAPHIC] [TIFF OMITTED] T0581.179
    
    [GRAPHIC] [TIFF OMITTED] T0581.180
    
    [GRAPHIC] [TIFF OMITTED] T0581.181
    
    [GRAPHIC] [TIFF OMITTED] T0581.182
    
    [GRAPHIC] [TIFF OMITTED] T0581.183
    
    [GRAPHIC] [TIFF OMITTED] T0581.184
    
    [GRAPHIC] [TIFF OMITTED] T0581.185
    
    [GRAPHIC] [TIFF OMITTED] T0581.186
    
    [GRAPHIC] [TIFF OMITTED] T0581.187
    
    [GRAPHIC] [TIFF OMITTED] T0581.188
    
    [GRAPHIC] [TIFF OMITTED] T0581.189
    
    [GRAPHIC] [TIFF OMITTED] T0581.190
    
    [GRAPHIC] [TIFF OMITTED] T0581.191
    
    [GRAPHIC] [TIFF OMITTED] T0581.192
    
    [GRAPHIC] [TIFF OMITTED] T0581.193
    
    [GRAPHIC] [TIFF OMITTED] T0581.194
    
    [GRAPHIC] [TIFF OMITTED] T0581.195
    
    [GRAPHIC] [TIFF OMITTED] T0581.196
    
    [GRAPHIC] [TIFF OMITTED] T0581.197
    
    [GRAPHIC] [TIFF OMITTED] T0581.198
    
    [GRAPHIC] [TIFF OMITTED] T0581.199
    
    [GRAPHIC] [TIFF OMITTED] T0581.200
    
    [GRAPHIC] [TIFF OMITTED] T0581.201
    
    [GRAPHIC] [TIFF OMITTED] T0581.202
    
    [GRAPHIC] [TIFF OMITTED] T0581.203
    
    [GRAPHIC] [TIFF OMITTED] T0581.204
    
    [GRAPHIC] [TIFF OMITTED] T0581.205
    
    [GRAPHIC] [TIFF OMITTED] T0581.206
    
    [GRAPHIC] [TIFF OMITTED] T0581.207
    
    [GRAPHIC] [TIFF OMITTED] T0581.208
    
    [GRAPHIC] [TIFF OMITTED] T0581.209
    
    [GRAPHIC] [TIFF OMITTED] T0581.210
    
    [GRAPHIC] [TIFF OMITTED] T0581.211
    
    [GRAPHIC] [TIFF OMITTED] T0581.212
    
    [GRAPHIC] [TIFF OMITTED] T0581.213
    
    [GRAPHIC] [TIFF OMITTED] T0581.214
    
    [GRAPHIC] [TIFF OMITTED] T0581.215
    
    [GRAPHIC] [TIFF OMITTED] T0581.216
    
    [GRAPHIC] [TIFF OMITTED] T0581.217
    
    [GRAPHIC] [TIFF OMITTED] T0581.218
    
    [GRAPHIC] [TIFF OMITTED] T0581.219
    
    [GRAPHIC] [TIFF OMITTED] T0581.220
    
    [GRAPHIC] [TIFF OMITTED] T0581.221
    
    [GRAPHIC] [TIFF OMITTED] T0581.222
    
    [GRAPHIC] [TIFF OMITTED] T0581.223
    
    [GRAPHIC] [TIFF OMITTED] T0581.224
    
    [GRAPHIC] [TIFF OMITTED] T0581.225
    
    [GRAPHIC] [TIFF OMITTED] T0581.226
    
    [GRAPHIC] [TIFF OMITTED] T0581.227
    
    [GRAPHIC] [TIFF OMITTED] T0581.228
    
    [GRAPHIC] [TIFF OMITTED] T0581.229
    
    [GRAPHIC] [TIFF OMITTED] T0581.230
    
    [GRAPHIC] [TIFF OMITTED] T0581.231
    
    [GRAPHIC] [TIFF OMITTED] T0581.232
    
    [GRAPHIC] [TIFF OMITTED] T0581.233
    
    [GRAPHIC] [TIFF OMITTED] T0581.234
    
    [GRAPHIC] [TIFF OMITTED] T0581.235
    
    [GRAPHIC] [TIFF OMITTED] T0581.236
    
    [GRAPHIC] [TIFF OMITTED] T0581.237
    
                                 <all>

</pre></body></html>
